OFFICES, BOARDS AND DIVISIONS

ANNUAL FINANCIAL STATEMENTS

      FISCAL YEAR 2011

        U.S. Department of Justice

      Office of the Inspector General

               Audit Division


           Audit Report 12-13

             February 2012

             OFFICES, BOARDS AND DIVISIONS

             ANNUAL FINANCIAL STATEMENTS

                    FISCAL YEAR 2011


               OFFICE OF THE INSPECTOR GENERAL

                  COMMENTARY AND SUMMARY


      This audit report contains the Annual Financial Statements of the
Offices, Boards and Divisions (OBDs) for the fiscal years (FY) ended
September 30, 2011, and September 30, 2010. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed the OBD’s audit
in accordance with U.S. generally accepted government auditing standards.
The audit resulted in an unqualified opinion on the FY 2011 financial
statements. An unqualified opinion means that the financial statements
present fairly, in all material respects, the financial position and the results
of the entity’s operations in conformity with U.S. generally accepted
accounting principles. For FY 2010, the OBDs also received an unqualified
opinion on its financial statements (OIG Report No. 11-11).

       KPMG LLP also issued reports on internal control over financial
reporting and on compliance and other matters. The auditors did not
identify any significant deficiencies in the FY 2011 Independent Auditors’
Report on Internal Control over Financial Reporting. Additionally, no
instances of non-compliance with applicable laws and regulations, and the
Federal Financial Management Improvement Act of 1996 were identified
during the audit in the FY 2011 Independent Auditors’ Report on Compliance
and Other Matters.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on the OBDs’ financial statements,
conclusions about the effectiveness of internal control, conclusions on
whether the OBDs’ financial management systems substantially complied
with the Federal Financial Management Improvement Act of 1996, or
conclusions on compliance with laws and regulations. KPMG LLP is
responsible for the attached auditors’ reports dated November 8, 2011, and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with U.S.
generally accepted government auditing standards.
This page intentionally left blank.

                OFFICES, BOARDS AND DIVISIONS

                ANNUAL FINANCIAL STATEMENTS

                       FISCAL YEAR 2011


                          TABLE OF CONTENTS


                                                                              PAGE


MANAGEMENT'S DISCUSSION AND ANALYSIS..........................................3


INDEPENDENT AUDITORS’ REPORTS


  REPORT ON FINANCIAL STATEMENTS ................................................ 35


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING............ 37


  REPORT ON COMPLIANCE AND OTHER MATTERS ................................ 39


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


  CONSOLIDATED BALANCE SHEETS.................................................... 42


  CONSOLIDATED STATEMENTS OF NET COST ...................................... 43


  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION............. 44


  COMBINED STATEMENTS OF BUDGETARY RESOURCES ........................ 46


  COMBINED STATEMENTS OF CUSTODIAL ACTIVITY............................. 47


  NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS ........................... 48


REQUIRED SUPPLEMENTARY INFORMATION


  COMBINING STATEMENTS OF BUDGETARY RESOURCES ...................... 78

This page intentionally left blank.

Management’s Discussion and Analysis


              Unaudited





              -1-
This page intentionally left blank.





            -2-
Management’s Discussion and Analysis (MD&A)
(unaudited)

This report presents the Annual Financial Statements of the Offices, Boards and Divisions (the OBDs) for the
fiscal years (FY) ended September 30, 2011 and 2010. In accordance with the Government Management
Reform Act (GMRA) of 1994, the Attorney General prepares, and submits to the Director of the Office of
Management and Budget (OMB), audited financial statements covering the accounts and activities of the
Department of Justice (DOJ or the Department). The OBDs entity is comprised of legal, executive, and
management organizations. Collectively, these organizations comprise one of the DOJ financial statement
reporting entities.

MISSION
The overall mission of the Department, as reflected in its Strategic Plan for the FYs 2007-2012, is stated as
follows:



 "...to enforce the law and defend the interests of the United States according to the law; to
ensure public safety against threats foreign and domestic; to provide federal leadership in
preventing and controlling crime; to seek just punishment for those guilty of unlawful
behavior; and to ensure fair and impartial administration of justice for all Americans."



The OBDs play a major role in carrying out this mission. The OBDs entity is diverse, with responsibility for
performing a broad array of program activities. The OBDs represent the American people in all legal matters
involving the United States Government. These legal activities include ensuring fair and healthy competition
of business; safeguarding consumers; enforcing drug and immigration laws; and protecting citizens through
effective law enforcement. The OBDs also supervise the administration of bankruptcy cases in the federal
Bankruptcy Courts; uphold the civil rights of all Americans; enforce laws protecting the environment;
represent the United States in civil and criminal litigation; develop and enforce criminal statutes; conduct
criminal investigations and coordinate law enforcement matters with foreign governments; and represent the
United States in civil and criminal litigation arising from internal revenue laws. Additionally, the National
Security Division (NSD) consolidates the Department’s primary national security elements within a single
Division to ensure greater coordination and unity of purpose between prosecutors and law enforcement
agencies as well as intelligence attorneys and the Intelligence Community.

The OBDs conduct all suits in the Supreme Court in which the United States is concerned. Further, the OBDs
represent the Government in legal matters, including the rendering of advice and opinions, upon request, to the
President and to the heads of executive departments and agencies.

In addition to legal activities, the OBDs provide leadership and assistance to State, local, and tribal
governments through the Office of Community Oriented Policing Services (COPS). The OBDs include the
DOJ executive leadership offices, which assist the Attorney General in the overall supervision and
management of DOJ programs, and provide executive assistance and support to the 94 Offices of the United
States Attorneys (USAs). The OBDs perform the management, policy development, and advisory functions
that support DOJ budgeting and financial management, personnel management, information technology
management, equal employment opportunity, and resource planning. Finally, the OBDs manage and oversee
federal prisoner detention by establishing a secure and effective operating environment that drives efficient
and fair expenditure of appropriated funds. Administratively, the OBDs manage the Working Capital Fund
(WCF), which is a revolving fund that is authorized by law to finance a cycle of operations where the costs for



                                                   -3-
goods or services provided are charged back to the recipient. The funds received are available to continue
operations and for future investments. In many ways, the WCF has characteristics typical of a business
enterprise.

ORGANIZATIONAL STRUCTURE
The following organization chart shows the organizational structure of the OBDs entity (the OBDs are shown
in colored or shaded boxes) as it relates to the rest of the Department (non-OBDs are shown in boxes that are
not colored or shaded). The Justice Management Division (JMD) oversees the administrative operations of the
WCF.



                                                                         U.S. DEPARTMENT OF JUSTICE



                                                                                        Attorney General


                                                                                               Deputy
                                                                                          Attorney General


                                                  ASSOCIATE
             SOLICITOR
                                                  ATTORNEY
             GENERAL                               GENERAL


                                                                                                       OFF CE OF
               OFF CE OF                                                                  OFFICE OF
                                                                                                        PUBLIC
                  THE                                                                   LEGAL POL CY
                                                                                                        AFFAIRS
               SOL CITOR
               GENERAL



                                                                                          OFFICE OF    OFF CE OF
                                         COMMUNITY                                       LEGISLATIVE     LEGAL
              OFFICE OF                                         CIVIL                                                 FEDERAL                         NATIONAL         OFFICE OF
                                          ORIENTED                            CIVIL        AFFAIRS     COUNSEL                        CRIMINAL
               JUSTICE                                        RIGHTS                                                 BUREAU OF                        SECURITY       PROFESS ONAL
                                          POLICING                          DIVISION                                                  DIVISION
              PROGRAMS                                        DIVISION                                             INVESTIGATION                      DIVISION       RESPONSIBILITY
                                          SERVICES


                                                                                          OFF CE OF
               EXECUTIVE                                                  ENVIRONMENT       NTER-      OFF CE OF
                                           OFFICE OF                                                     TRIBAL         DRUG                          OFFICE OF       OFFICE OF THE
              OFFICE FOR                                  ANTITRUST       AND NATURAL   GOVERNMENTAL                                 BUREAU OF
                                         INFORMATION                                                    JUSTICE     ENFORCEMENT                     THE INSPECTOR        PARDON
             UNITED STATES                                 DIVISION        RESOURCES      AND PUBLIC                                  PRISONS
                                            POLICY                                                                 ADMINISTRATION                      GENERAL          ATTORNEY
               TRUSTEES                                                     DIVISION       LIAISON



                                          FOREIGN                                                                    EXECUTIVE         UNITED
               OFF CE OF                                                  COMMUNITY                                                                   JUSTICE        UNITED STATES
                                           CLA MS               TAX                                                 OFFICE FOR        STATES
                DISPUTE                                                   RELATIONS                                                                 MANAGEMENT          PAROLE
                                         SETTLEMENT           DIVISION                                             UNITED STATES     MARSHALS
              RESOLUTION                                                   SERVICE                                                                    DIVISION        COMMISSION
                                         COMMISSION                                                                 ATTORNEYS         SERVICE



                             OFF CE ON                                                                                              U.S. NATIONAL     EXECUTIVE
                             VIOLENCE                                                                                 UNITED                                         NATIONAL DRUG
                                                                                                                                       CENTRAL        OFFICE FOR
                              AGAINST                                                                                 STATES                                          INTELLIGENCE
                                                                                                                                       BUREAU        IMMIGRATION
                              WOMEN                                                                                 ATTORNEYS                                            CENTER
                                                                                                                                      INTERPOL         REVIEW



                                                                                                                    BUREAU OF                                        EXECUTIVE OFF CE
                                                                                                                                    OFFICE OF THE   PROFESSIONAL
                                                                                                                     ALCOHOL,                                         FOR ORGANIZED
                                                                                                                                      FEDERAL       RESPONSIBILITY      CRIME DRUG
                                                                                                                     TOBACCO,
                                                                                                                                     DETENT ON        ADVISORY         ENFORCEMENT
                                                                                                                    FIREARMS, &
                                                                                                                                      TRUSTEE          OFFICE          TASK FORCES
                                                                                                                    EXPLOSIVES




FINANCIAL STRUCTURE
The OBDs receive funding in over 130 different annual, multi-year, and no-year appropriations. Generally,
annual appropriations provide for most, but not all, salaries and expenses, and core program activities, while
multi-year and no-year provide for a wide variety of specialized programs, activities, and functions. Individual
OBDs components receive allotments and sub-allotments, as part of DOJ funds control. The OBDs financial
statements report the consolidated assets, liabilities, and results of the OBDs operations.




                                                                                        -4-
ANALYSIS OF FINANCIAL STATEMENTS

The OBDs financial statements received an unqualified audit opinion for the twelfth straight year. These
statements have been prepared from the accounting records of OBDs in conformity with the U.S. generally
accepted accounting principles and OMB Circular A-136, “Financial Reporting Requirements.” These
principles are the standards prescribed by the Federal Accounting Standards Advisory Board (FASAB).

Highlights of the financial and budgetary information presented in the financial statements are shown below:

Assets – The OBDs Consolidated Balance Sheet as of September 30, 2011 shows $6.3 billion in total assets, a
decrease of $467 million from the FY 2010 total assets of $6.8 billion. This decrease is primarily related to a
Change in Accounting Principle related to the reporting of Debt Collection Management (DCM) collections
with the General Fund Receipts account. Fund Balance with U.S. Treasury was $5.2 billion as of September
30, 2011, which represents 83 percent of total assets.

Liabilities – Total OBDs liabilities were $2.6 billion as of September 30, 2011, a decrease of $130 million
from the previous year’s total liabilities of $2.8 billion. This decrease can be attributed to the Change in
Accounting Principle related to the reporting of Debt Collection Management (DCM) collections that were
identified in prior years as Other Liabilities.

Net Cost of OBDs Operations – The Consolidated Statement of Net Cost presents the OBDs gross and net
cost for the Department’s three strategic goals. The net cost of OBDs operations totaled $7.4 billion for the
fiscal year ended September 30, 2011, an increase of $223 million from the previous year’s net cost of
operations of $7.1 billion. This change is due to normal operations.

Budgetary Resources – The OBDs Combined Statement of Budgetary Resources shows $10.4 billion in total
budgetary resources, a decrease of $107 million from FY 2010 total budgetary resources of $10.5 billion. The
decrease is primarily due to a decrease in Budget Authority.

Net Outlays – The OBDs Combined Statement of Budgetary Resources shows $6.8 billion in net outlays for
the fiscal year ended September 30, 2011, an increase of $411 million from the previous year’s total net
outlays of $6.4 billion.

Custodial Collections – The OBDs Combined Statement of Custodial Activity shows $5.3 billion in total
custodial collections for the fiscal year ended September 30, 2011, an increase of $438 million from the
FY 2010 total custodial collections of $4.8 billion. This increase is directly related to an increase in DCM
Collections related to Delinquent Federal Civil Debts as required by the Federal Debt Recovery Act of 1986.

PERFORMANCE INFORMATION

The OBDs resource and performance information is presented on the following pages. The performance
information is organized by Strategic Goal and Strategic Objective and is consistent with the Department’s
Government Performance and Results Act (GPRA) performance plans.

The OBDs Consolidated Statements of Net Cost for FY 2011 and FY 2010 are presented using the three
Strategic Goals as contained in the Strategic Plan for FYs 2007-2012. The Strategic Plan is available on the
Internet at DOJ’s website: http://www.justice.gov. The three Strategic Goals are listed in Table 2.

Because of the diversity of the OBDs components and their individual programs and missions, the OBDs are
involved in all three DOJ Strategic Goals. Table 1 and Table 2, along with associated graphs, provide an
overview of the sources of OBDs resources and how they were spent (by goal).




                                                  -5-
                                   Table 1. Sources of OBDs Resources

                                           (Dollars in Thousands)

                                                                                           Percent
                        Source                              FY 2011         FY 2010        Change

Earned Revenue                                                $1,322,329     $1,259,260          5.0%
Budgetary Financing Sources
  Appropriations Received                                      6,973,745      7,310,715         -4.6%
  Appropriations Transferred In/Out                            (187,823)      (209,609)         10.4%
  Nonexchange Revenues                                             1,070            319        235.4%
  Transfers In/Out Without Reimbursement                         113,735         75,097         51.5%
  Other Adjustments and Other Budgetary Financing
 Sources                                                        (49,664)       (49,751)          0.2%
Other Financing Sources
  Transfers In/Out Without Reimbursement                        (53,304)       (81,783)         34.8%
  Imputed Financing from Costs Absorbed by Others                221,611        163,195         35.8%
                                                    Total     $8,341,699     $8,467,443         -1.5%


                                 Table 2. How OBDs Resources are Spent
                                           (Dollars in Thousands)
                                                                                           Percent
                 Strategic Goal (SG)                        FY 2011         FY 2010        Change
 SG 1  Prevent Terrorism and Promote the Nation’s
       Security
                                          Gross Cost           $378,325        $359,943
                               Less: Earned Revenue            (116,209)       (110,232)
                                             Net Cost            262,116         249,711        5.0%
 SG 2	 Prevent Crime, Enforce Federal Laws, and
       Represent the Rights and Interests of the
       American People
                                          Gross Cost           $5,858,718     $5,763,437
                               Less: Earned Revenue           (1,002,609)      (968,224)
                                             Net Cost           4,856,109      4,795,213        1.3%
 SG 3 Ensure the Fair and Efficient Administration
       of Justice
                                          Gross Cost          $2,441,919      $2,269,929
                               Less: Earned Revenue            (203,511)       (180,804)

                                             Net Cost          2,238,408       2,089,125        7.1%

                                     Total Gross Cost         $8,678,962     $8,393,309
                          Less: Total Earned Revenue          (1,322,329)    (1,259,260)
                          Total Net Cost of Operations        $7,356,633     $7,134,049         3.1%




                                                    -6-
                          Comparison of Net Costs
               (Dollars in Thousands) - FY 2011 and FY 2010



$4,150,000




$3,150,000




$2,150,000




$1,150,000




 $150,000
               SG1                     SG2                    SG3
FY 2010      $249,711             $4,795,213               $2,089,125
FY 2011      $262,116             $4,856,109               $2,238,408




                     FY 2011 Net Costs by Strategic Goal



                                SG3
                               30.4%



                                                                        SG1
                                                                        3.6%




                                       SG2
                                       66%




                                  -7-
2011 Financial Highlights

A brief description of some of the major costs included in each Strategic Goal follows.

    •	 Strategic Goal 1, Prevent Terrorism and Promote the Nation’s Security includes resources
       dedicated to counterterrorism initiatives in the National Security Division, the United States
       Attorneys’ offices and Criminal Division.

    •	 Strategic Goal 2, Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests
       of the American People includes the functions of the legal divisions, the U.S. Attorneys, the U.S.
       Trustees, and the Organized Crime Drug Enforcement Task Force program. Goal 2 also includes the
       Community Oriented Policing Services and the administrative costs of the Office on Violence Against
       Women.

    •	 Strategic Goal 3, Ensure the Fair and Efficient Administration of Justice includes the Office of
       the Federal Detention Trustee, the U.S. Parole Commission, and the Executive Office for Immigration
       Review.


Data Reliability and Validity

The OBDs view data reliability and validity as critically important in the planning and assessment of our
performance. As such, this document includes a discussion of data validation, verification, and any identified
data limitations for each performance measure presented. Each Reporting Component ensures that data
reported meets the following criteria:

        At a minimum, performance data are considered reliable if transactions and other data that
        support reported performance measures are properly recorded, processed, and summarized to
        permit the preparation of performance information in accordance with criteria stated by
        management. Performance data need not be perfect to be reliable, particularly if the cost and
        effort to secure the best performance data possible will exceed the value of any data so
        obtained.




                                                  -8-
FY 2011 REPORT ON SELECTED ACCOMPLISHMENTS

STRATEGIC GOAL 1: Prevent Terrorism and Promote the Nation’s Security

4% of OBDs Net Costs support this Goal.

 STRATEGIC OBJECTIVE 1.1: Prevent, disrupt, and defeat terrorist operations before they occur.

 STRATEGIC OBJECTIVE 1.3: Prosecute those who have committed, or intend to commit, terrorist acts

 in the United States.

 STRATEGIC OBJECTIVE 1.4: Combat espionage against the United States.



 Investigate and Prosecute Terrorist Acts

Background/Program Objectives: Through both criminal and national security investigations, DOJ works to
arrest and prosecute or deport terrorists and their supporters and to disrupt financial flows that provide
resources to terrorist operations. These investigations enable the Department to gather information, punish
terrorists, develop and solidify relationships with critical partners, and maintain a presence visible to both
potential terrorists and the American public. Within the OBDs, both the National Security Division and the
United States Attorneys are heavily involved in the DOJ’s counterterrorism mission. The United States
Attorneys’ offices, the National Security Division, and the Criminal Division focus on the development and
prosecution of terrorism and cyberterrorism cases, and the coordination of information-sharing and
partnerships. The 94 United States Attorneys’ offices are part of a national network that coordinates the
dissemination of information and the development of a preventive, investigative and prosecutorial strategy
among federal law enforcement agencies, primary State and local police forces, and other appropriate State
agencies in each of the 94 federal judicial districts. The National Security Division coordinates
counterterrorism issues with the U.S. Attorneys’ offices, other Executive Branch agencies, and multilateral
organizations.

Performance Measure: DISCONTINUED MEASURE: Terrorism/Anti-Terrorism Convictions

FY 2011 Target: In accordance with Department guidance, targeted levels of performance are not projected
for this indicator.
FY 2011 Actual Performance: N/A

Discussion of FY 2011 Results: This measure has been discontinued and will no longer be reported.

        .




                                                 -9-
                                    Terrorism/Anti-Terrorism Convictions [EOUSA]

                                     600




                                     300




                                        0
                                                                                                  FY11 FY11
                                            FY02 FY03 FY04 FY05 FY06 FY07 FY08 FY09 FY10
                                                                                                   Tgt  Act
                Terrorism                   153   103   118   102   N/A   N/A   N/A   N/A   N/A   N/A   N/A
                Terrorism-related           251   558   379   409   N/A   N/A   N/A   N/A   N/A   N/A   N/A
                Terrorism/Anti-Ter rorism   N/A   N/A   N/A   N/A   517   459   372   307   292   N/A   N/A




Data Definitions: Terrorism convictions were initially based on Executive Office for U.S. Attorneys’
(EOUSA) historical data definitions in EOUSA’s original program categories of International Terrorism and
Domestic Terrorism. Terrorism-related convictions included program categories for terrorism-related hoaxes,
terrorist financing, and anti-terrorism. These categories were implemented after September 11, 2001, and
allowed EOUSA to capture more terrorism-related work. Anti-terrorism cases included defendants who did
not necessarily engage in terrorist-related activity, but whose conduct was prosecuted under other statutes as
part of an effort to disrupt or prevent possible terrorist attacks. Terrorism convictions were redefined as
Terrorism/Anti-Terrorism convictions in the United States Attorneys’ Case Management System. Terrorism
cases include hoax and financing cases, as well as the traditional domestic and international terrorism cases.
Anti-terrorism cases are those as defined above. In FY 2008, the use of the anti-terrorism program label was
terminated, and a new program category, national security/critical infrastructure, took its place. Like the
former anti-terrorism cases, cases labeled as national security/critical infrastructure are prosecuted against
defendants whose criminal conduct may or may not be terrorist-related, but whose conduct affects national
security or exposes critical infrastructure to potential terrorist exploitation.

Data Collection and Storage: Data are collected from the USA-5 (USA’s online system that tracks personnel
resource data by program category) monthly Resource Summary Report System, which summarizes the use of
personnel resources allocated to USA offices. Data are also being taken from the United States Attorneys’
central case management system, which contains district information including criminal matters, cases, and
appeals.

Data Validation and Verification: The United States Attorneys’ offices are required to submit bi-annually
(April 1 and October 1) case data certifications to the EOUSA. Knowledgeable personnel (such as supervisory
attorneys and legal clerks) in each district review the data.

Data Limitations: As noted above, the United States Attorneys’ offices are required to submit bi-annual case
data certifications to EOUSA. Attorneys and support personnel are responsible for ensuring that local
procedures are followed for maintaining the integrity of the system data. The completeness and accuracy of
case management systems are dependent on the commitment of the management of each United States
Attorney's Office.




                                                    - 10 -
STRATEGIC GOAL 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and
Interests of the American People

66% of OBDs Net Costs support this Goal.

  STRATEGIC OBJECTIVE 2.1: Strengthen partnerships for safer communities and enhance the Nation’s

  capacity to prevent, solve, and control crime.

  STRATEGIC OBJECTIVE 2.4: Reduce the threat, trafficking, use, and related violence of illegal drugs.

  STRATEGIC OBJECTIVE 2.6: Uphold the civil and Constitutional rights of all Americans.

  STRATEGIC OBJECTIVE 2.7: Vigorously enforce and represent the interests of the United States in all 

  matters over which the Department has jurisdiction.

  STRATEGIC OBJECTIVE 2.8: Protect the integrity and ensure the effective operation of the Nation’s

  bankruptcy system.



 Successfully Litigate Cases

Background/Program Objectives: Representing the rights and interests of the American people is a top
priority for the Department of Justice. Among the DOJ components sharing responsibilities to achieve this
goal are the Executive Office of the U.S. Attorneys, the Antitrust, Civil, Civil Rights, Criminal, Environment
and Natural Resources and Tax Divisions.

There are 94 U.S. Attorney Offices located throughout the United States and its territories. Each U.S.
Attorney serves as the chief federal law enforcement officer within his or her judicial district and, as such, is
responsible for the prosecution of criminal cases brought by the federal government; the litigation and defense
of civil cases in which the United States is a party; the handling of criminal and civil appellate cases before
United States Courts of Appeal; and the collection of civil and criminal debts and restitutions owed the federal
government which are administratively uncollectable.

Additionally, the Department has litigators that specialize in the areas of: preserving a competitive market
structure; defending the public fisc against unwarranted claims; protecting civil rights; enforcing federal civil
and criminal statutes; safeguarding the environment; and administrating internal revenue laws.

The Antitrust Division (ATR) promotes and protects the competitive process – and the American economy –
through the enforcement of antitrust laws. These laws apply to virtually all industries and to every level of
business, including manufacturing, transportation, distribution, and marketing.

The Civil Division (CIV) defends challenges to Congressional statutes, Presidential actions, national security
issues, benefit programs, and energy policies; pursues violators of immigration and consumer protection laws;
handles thousands of affirmative and defensive cases with billions of dollars at issue related to accident and
liability claims, natural disasters and other unprecedented events, and commercial issues such as bankruptcy,
contract disputes, banking, insurance, patents, fraud, and debt collection; and administers the Radiation
Exposure Compensation and the 9/11 Victim Compensation Programs.

The Civil Rights Division (CRT) enforces federal statutes prohibiting discrimination in education, religion,
employment, credit, housing fair lending, public accommodations and facilities, conditions of confinement in
state and locally operated institutions, national origin, voting, retaliation based on military service, and certain
federally funded and conducted programs. Additionally, CRT enforces criminal civil rights responsibilities for
human trafficking and involuntary servitude statutes; acts of racial, ethnic, sexual orientation, gender identity,
disability or religious violence; “color of law” offenses by local and federal law enforcement officials; and
conspiracies to interfere with federally protected rights. The Division also enforces the criminal and civil




                                                   - 11 -
provisions to protect the rights of people to use the services of reproductive health clinics free from
interference.

The Criminal Division (CRM) develops, enforces, and supervises the application of all federal criminal laws
(except those specifically assigned to other divisions). The mission of the Criminal Division is to identify and
respond to critical and emerging national and international criminal threats, and to lead the enforcement,
regulatory, and intelligence communities in a coordinated, nationwide response to reduce those threats. The
Division engages in several functions vital to achieving its mission: investigating and prosecuting significant
criminal cases and matters; providing expert legal advice and training; providing critical law enforcement tools
(e.g., Title III wiretaps); and forging global law enforcement partnerships.

The Environment and Natural Resources Division (ENRD) brings cases against those who violate the nation's
civil and criminal pollution-control and wildlife protection laws. Additionally, ENRD defends environmental
challenges to government programs and activities and represents the U.S. in matters concerning the
stewardship of the nation's natural resources and public lands. In addition, ENRD litigates cases concerning
Indian rights and claims.

The Tax Division's (TAX) mission is to enforce the nation’s tax laws fully, fairly, and consistently, through
both criminal and civil litigation, in order to promote voluntary compliance with the tax laws, maintain public
confidence in the integrity of the tax system, and promote the sound development of the law.

Performance Measure: Percent of Cases Favorably Resolved

FY 2011 Target:
Criminal Cases: 90%
Civil Cases: 80%
FY 2011 Actual:
Criminal Cases: 93%
Civil Cases: 85%

Discussion of FY 2011 Results: The U.S. Attorneys continued its efforts combating fraud with its Financial
Fraud Enforcement Task Force and 94 regional mortgage fraud task forces and working groups, together with
targeted financial fraud training provided at the National Advocacy Center including seminars in the areas of
mortgage fraud, bank fraud, securities fraud, and public corruption. Some highlights of these efforts include
the following: In April 2011, Lee Bentley Farkas was convicted in a case prosecuted by the Criminal Division
and the U.S. Attorney’s Office for the Eastern District of Virginia, of securities fraud and other crimes in
connection with his role in a $2.9 billion fraud scheme which contributed to the failures of one of the 50
largest banks in the United States and one of the largest privately held mortgage lending companies in the
United States. On June 30, 2011, Farkas was sentenced to 30 years imprisonment, and on September 26, 2011,
was ordered to pay restitution in the amount of $3.5 million. In March and June 2011, respectively, two
executives from the A&O Resource Management Ltd., Christian Allmendinger and Adley Abdulwahab, were
convicted of numerous offenses that arose from their operation of a group of entities collectively referred to as
A&O life settlement fraud scheme. In September 2011, Allmendinger and Abdulwahab were sentenced to 45
years and 60 years (respectively) in prison. Five other individuals pled guilty and are currently serving prison
terms in connection with the A&O fraud scheme. The A&O fraud scheme caused more than 800 investors,
many of whom were elderly, to lose more than $100 million. In a health care fraud settlement in the District
of Massachusetts, GlaxoSmithKline (GSK) paid $600 million to resolve False Claims Act allegations
regarding its manufacturing and distribution of certain adulterated drugs made at GSK’s facility. In addition, a
GSK subsidiary pled guilty to a criminal felony for releasing into interstate commerce adulterated drugs, and
paid a criminal fine of $150 million.




                                                   - 12 -
The Criminal Division prosecuted and achieved favorable dispositions in FY 2011 in cases covering a wide
range of complex case law. Examples of this work include the successful conviction of Lee Bentley Farkas,
the former chairman of a private mortgage lending company, Taylor, Bean & Whitaker (TBW), for his role in
a more than $2.9 billion fraud scheme that contributed to the failures of Colonial Bank, one of the 25 largest
banks in the United States in 2009, and TBW, one of the largest privately held mortgage lending companies in
the United States in 2009; the sentencing of the last defendant in a multi-defendant investigation of the Latin
Kings gang in Maryland to 22-and-a-half years in prison; and a guilty plea of the owner of a mental health care
company in Miami for orchestrating a $205 million Medicare fraud scheme, which led to the sentence of 50
years in prison.

The Antitrust Division obtained $524.3 million in criminal fines in FY 2011 against antitrust violators. The
Division's investigations into the air transportation and cargo and electronic auto parts industries yielded
significant restitution and fines which helped fund the Department's Crime Victims Fund. In addition, the
Division continued its work with the Financial Fraud Enforcement Task Force and its efforts to wage an
aggressive, coordinated and proactive effort to investigate and prosecute financial crimes. On the civil side,
the Division was successful in protecting competition and U.S. consumers by challenging proposed mergers
and agreements in areas as diverse as health insurance, oil and gas, software, credit and debit card networks,
dairy, media, and hospital services.

The Civil Division exceeded its target by defeating billions of dollars in unmeritorious claims, in addition to
the successful defense of suits filed against the government as a result of the government’s policies, laws, and
involvement in commercial activities, domestic and foreign operations and entitlement programs, as well as
law enforcement initiatives, military actions, and counterterrorism efforts. The Division also pursued
affirmative litigation, bringing suits on behalf of the United States, which resulted in the return of billions of
dollars to the Treasury, Medicare, and other entitlement programs.

The Civil Rights Division has made significant strides in fulfilling its mission to vigorously enforce the civil
rights of all Americans. In the wake of the foreclosure crisis, CRT substantially increased efforts to enforce
the fair lending laws, filing more law suits under the Equal Credit Opportunity Act than in any year in at least
a decade, and reached the largest settlement ever under the Fair Housing Act to resolve claims of rental
discrimination, as well as obtained the largest amount of monetary relief ever in a Justice Department Fair
Lending settlement; training thousands of federal and local law enforcement officials and community
stakeholders around the country on the Matthew Shepard and James Byrd Jr. Hate Crimes Prevention Act of
2009, as well as indicting four cases under the Act, and secured the first seven convictions under the Act;
winning convictions in a landmark case against five New Orleans police officers involved in shootings of
civilians and an extensive cover-up that occurred in the wake of Hurricane Katrina, which also resulted in five
additional officers pleading guilty to charges related to the incident; signing comprehensive settlement
agreements with Georgia and Delaware to enforce the Supreme Court’s Olmstead decision, ensuring that
thousands of individuals with disabilities will receive services in their communities, rather than being
segregated in institutions; issuing the most extensive overhaul of the Americans with Disabilities Act
regulations since the passage of the Act in 1990; stepping up enforcement of the voting rights, taking an
unprecedented number of actions to protect the voting rights of military and overseas voters in the 2010
election cycle; expanded other efforts to protect members of the military and their families, including a $20
million settlement with Bank of America/Countrywide to resolve allegations that the bank illegally foreclosed
on members of the military without court orders; and conducting one of the most extensive reviews ever of a
law enforcement agency, and are working with city officials, the police department and the community to
develop a comprehensive blueprint for sustainability reform of the New Orleans Police Department.

The Environment and Natural Resources Division continued to enforce the Clean Water Act, the Clean Air
Act, and pipeline safety laws. Specifically, the Division participated in an agreement between the
Environmental Protection Agency, and the U.S. Department of Transportation with BP Exploration Alaska,
Inc. (BP Alaska) under which the company will pay a $25 million civil penalty and carry out a system-wide
pipeline integrity management program, as part of a settlement for spilling more than 5,000 barrels of crude oil



                                                   - 13 -
from the company’s pipelines on the North Slope of Alaska in 2006. The penalty is the largest per-barrel
penalty to date for an oil spill. The settlement also addresses Clean Air Act violations arising out of BP
Alaska’s improper asbestos removal along the pipeline in the aftermath of the spill. BP Alaska is required to
develop a $60 million system-wide program to manage pipeline integrity for the company’s 1,600 miles of
pipeline on the North Slope. The program will address corrosion and other threats to these oil pipelines and
require regular inspections and adherence to a risk-based assessment system. BP Alaska has already spent
$200 million replacing the lines that leaked on the North Slope. Of the $25 million penalty, $20.05 million
will be deposited in the Oil Spill Liability Trust Fund established under the Clean Water Act and administered
by the U.S. Coast Guard. The remainder, $4.95 million, will be paid to the U.S. Treasury. The funds paid to
the Oil Spill Liability Trust Fund will be used to finance federal response activities and provide compensation
for damages sustained from future discharges or threatened discharges of oil into water or adjoining shorelines.

The Tax Division’s top litigation priority continues to be the concerted civil and criminal effort to combat the
serious problem of non-compliance with our tax laws by U.S. taxpayers using secret offshore accounts – a
problem that a 2008 Senate report concluded costs the U.S. Treasury at least $100 billion annually. As part of
the deferred prosecution agreement the Tax Division negotiated in 2009 with UBS AG, Switzerland’s largest
bank, as well as a 2009 agreement negotiated among the U.S., UBS, and the Swiss government to settle a civil
summons enforcement proceeding brought by the Tax Division, the Internal Revenue Service (IRS) continues
to receive account information about thousands of the most significant tax cheats among the U.S. taxpayers
who maintain secret Swiss bank accounts. The prosecution results so far have been encouraging: To date,
approximately 150 grand jury investigations of offshore-banking clients have been initiated, of which 38 cases
have been charged, with 31 guilty pleas having been entered, 2 convicted after trial (with each receiving a 10-
year prison sentence), and 5 awaiting trial. A number of facilitators who helped clients hide assets offshore
have been indicted, resulting in 13 bankers, 2 advisors, and 2 attorneys being charged and awaiting trial; one
advisor being convicted and awaiting sentencing; and one banker being convicted and sentenced. The banks
implicated include not only UBS, but another international Swiss bank, a regional Swiss bank, and HSBC
India. In addition, grand jury investigations have been opened into additional offshore banks across the world,
and the Division obtained a court decision allowing the IRS to summon additional account information from
HSBC Bank. The Division also ensures that the public is aware of the offshore initiative. Indeed, the IRS
credits the publicity surrounding this initiative with prompting a huge increase in the number of taxpayers who
have “come in from the cold” and voluntarily disclosed to the IRS their previously hidden foreign
accounts. Nearly 18,000 U.S. taxpayers made voluntary disclosures in the 18-month period concluding
February, 2011 – in contrast to fewer than 100 in a typical year – and made $2.2 billion in payments to the
IRS. Another 12,000 U.S. taxpayers disclosed their accounts under the 2011 Offshore Voluntary Disclosure
Initiative (which ended September 9, 2011) and have made $500 million in payments to the IRS so far.


                                     Percent of Cases F avorably Resolved

                   100%

                       75%

                       50%

                       25%

                       0%
                                                                                            FY11   FY11
                             FY02   FY03   FY04   FY05   FY06   FY07   FY08   FY09   FY10
                                                                                            Tgt.   Act.
               Criminal      91%    92%    91%    91%    92%    92%    92%    92%    94%    90%     93%
               Civil         86%    87%    85%    84%    83%    83%    79%    83%    85%    80%     85%




                                                   - 14 -
Data Definition: Cases favorably resolved include those cases that resulted in court judgments favorable to
the government, as well as settlements. For antitrust-related merger cases, favorably resolved data includes:
abandoned mergers, mergers “fixed,” or mergers with consent decrees. Non-merger cases favorably resolved
include instances where practices changed after the investigation and complaints filed with consent decrees.
The data set includes non-appellate cases closed during the fiscal year.

Data Collection and Storage: Data are currently captured within each component’s automated case
management system and companion interface systems. Currently, cases worked on by more than one
component are included in the totals from CRM, CRT, ENRD, and EOUSA. Also, the court’s disposition date
is used for reporting purposes for ATR, CIV, CRM, CRT, and ENRD; however, EOUSA and TAX use the
date entered into their current case management system. Additionally, CIV counts at the party level; CRM,
ENRD, and EOUSA count cases at the defendant level; CRT and TAX count Civil and Criminal cases. Lastly,
ATR includes Criminal, Civil Merger, and Civil Non-Merger; ENRD includes affirmative, defensive, criminal,
and condemnation cases in their totals.

Data Validation and Verification: Each component implements their individual methodology for verifying
data; however, in general, case listings and reports are reviewed by attorney managers for data completeness
and accuracy on a routine basis. Batch data analysis and ad hoc reviews are also conducted.

Data Limitations: Data quality suffers from the lack of a single DOJ case management system and a
standardized methodology for capturing case related data. Due to the inherent variances in data collection and
management, cases may refer to cases or individuals. In addition, due to reporting lags, case closures for any
given year may be under or over-reported. Actual data prior to FY 2003 for the Criminal Division was
inconsistent until technical and policy improvements were implemented that fiscal year. Lastly, EOUSA data
does not include information for the month of September 2005 for the Eastern District of Louisiana due to
Hurricane Katrina.




                                                 - 15 -
Reduce Drug Availability

Background/Program Objectives: The Department focuses its drug law enforcement efforts on reducing the
availability of drugs by disrupting and dismantling the largest drug trafficking organizations and related money
laundering networks operating internationally and domestically, including those on the Attorney General’s
Consolidated Priority Organization Target (CPOT) List. The first CPOT List was issued in September 2002
and is reviewed and updated bi-annually. The List identifies the most significant international drug trafficking
and money laundering organizations and those primarily responsible for the nation’s drug supply. The
Attorney General has designated the Organized Crime Drug Enforcement Task Force (OCDETF) Program as
the centerpiece of DOJ’s drug supply reduction strategy. The Program coordinates multi-agency and multi-
jurisdictional investigations targeting the most serious drug trafficking threats. The OCDETF Program is
responsible for coordinating the annual formulation of the CPOT list. The OCDETF Program functions
through the efforts of the United States Attorneys; elements of the Department’s Criminal Division; the
investigative, intelligence, and support staffs of the Drug Enforcement Administration; the Federal Bureau of
Investigation; the Bureau of Alcohol, Tobacco, Firearms and Explosives; the U.S. Marshals Service; U.S.
Immigration and Customs Enforcement; the U.S. Coast Guard; and the Internal Revenue Service. The
OCDETF agencies also partner with numerous state and local law enforcement agencies.

The goal of each OCDETF investigation is to determine connections among related investigations nationwide
in order to identify and dismantle the entire structure of the drug trafficking organizations, from international
supply and national transportation cells, to regional and local distribution networks. A major emphasis of the
Department’s drug strategy is to disrupt the traffickers’ financial dealings and to dismantle the financial
infrastructure that supports these organizations. The OCDETF Program has the greatest impact upon the flow
of drugs through this country when it successfully incapacitates the entire drug network by targeting and
prosecuting its leadership and seizing the profits that fund continued operations.

Performance Measure: CPOT-Linked Drug Trafficking Organizations Disrupted and Dismantled

FY 2010 Revised Actual:
Disrupted: 367 (Previous Actual: 365)

FY 2011 Target:
Dismantled: 157
Disrupted: 318
FY 2011 Actual:
Dismantled: 195
Disrupted: 408

Discussion of FY 2011 Results: The Department achieved unprecedented results during FY 2011 in
dismantling and disrupting CPOT-linked drug trafficking organizations. The Department dismantled 195
CPOT-linked organizations in FY 2011, exceeding its target by 24 percent. This is a 7 percent increase over
the 182 dismantled in FY 2010. The Department disrupted 408 CPOT-linked organizations in FY 2011,
exceeding its target by 28 percent. This is an 11 percent increase over the 367 reported in FY 2010 and a
48 percent increase over the 276 reported in FY 2009.

During FY 2011, in addition to making important gains against CPOT-linked organizations, the Department
continued to achieve significant successes against the CPOTs themselves. Over the course of the last year, six
CPOT targets were dismantled and six CPOT targets were disrupted. Through these dismantlements and
disruptions, the Department made significant impacts against the Gulf Cartel and other significant cartels
operating out of South America. Five of the six dismantled CPOT targets were arrested and extradited to the
United States for prosecution. These six dismantled CPOTs had a significant impact on the illegal drug supply
in the United States. It is estimated that their individual activities included: the capability of importing and



                                                  - 16 -
distributing 100,000 tablets of MDMA per month into the United States and distributing MDMA, cocaine,
marijuana, hash, and methamphetamine around the world; distributing 40 kilograms of heroin to the New York
area on a monthly basis; and moving cocaine valued in excess of $4 billion into the United States since 2004.

In addition to arrests, the Department made other significant gains against the dismantled and disrupted CPOT
targets including seizing nearly two million MDMA tablets from a dismantled CPOT target; securing the
forfeiture of $35 million from a dismantled CPOT and seizing 24 properties in excess of 12,000 acres; and
seizing approximately $245,000,000 in assets and financial instruments, over 90 labs, and 24 tons of cocaine
from a disrupted CPOT target. Law enforcement activity targeting these CPOTs involved complex and
coordinated intelligence driven investigations, with exceptional cooperation between U.S. law enforcement
agencies and international partners.

The Department’s FY 2011 unprecedented successes dismantling or disrupting 603 CPOT-linked drug
trafficking organizations, a 10 percent increase over the 549 dismantled or disrupted in FY 2010, as well as the
significant enforcement actions against CPOTs themselves have resulted in keeping multi-ton quantities of
illegal drugs such as cocaine, heroin, marijuana and methamphetamine from ever entering the United States.



                       CPOT-Linked Drug Trafficking Organizations Disrupted and Dismantled

                                      375
                                      300
                                      225
                                      150
                                       75
                                          0
                                                                                                         FY11 FY11
                                              FY03 FY04 FY05 FY06 FY07 FY08 FY09 FY10
                                                                                                          Tgt. Act.
                             Dism antled      20     36     121     93      86     104     143    182     157     195
                             Disr upted       62    159     204     189    169     299     276    367     318     408

   Note: FY 10 actual and FY 11 target data have been updated and do not reflect the numbers reported in FY 2012 Performance and Budget Summary.




Data Definition: An organization is considered linked to a CPOT if credible evidence exists of a nexus
between the primary investigative target and a CPOT target, verified associate, or component of the CPOT
organization. Disrupted means impeding the normal and effective operation of the targeted organization, as
indicated by changes in the organizational leadership and/or changes in methods of operation. Dismantled
means destroying the organization's leadership, financial base, and supply network such that the organization
is incapable of reconstituting itself.

Data Collection and Storage: For this measure, OCDETF reviews all of the cases worked by FBI and DEA.
When there are cases that both agencies work, they are counted as one case in the consolidated numbers
reported here in the OBD MD&A and the Department’s Performance and Accountability Report. This
procedure is in place to prevent double counting in Department-level reports.

Investigations may be linked to a CPOT organization at any time during the investigation. Once the link is
verified, a specific code or other identifier is assigned to the investigation. Accordingly, data on this
performance measure may lag behind actual identification of the link by the investigative agency. The
investigation is tracked as “CPOT-linked” by the agency and within the OCDETF Management Information
System.




                                                              - 17 -
Data Validation and Verification: The CPOT List is updated semi-annually. Each OCDETF agency has an
opportunity to nominate targets for addition to/deletion from the List. Nominations are considered by the
CPOT Working Group (made up of mid-level managers from the participating agencies). Based upon the
Working Group’s recommendations, the OCDETF Operations Chiefs decide which organizations will be
added to/deleted from the CPOT List.

Once a CPOT is added to the List, OCDETF investigations can be linked to that organization. The links are
reviewed and confirmed by OCDETF field managers using the OCDETF Fusion Center, agency databases,
and intelligence information. Field recommendations are reviewed by the OCDETF Executive Office. In
instances where a link is not fully substantiated, the sponsoring agency is given the opportunity to follow-up.
Ultimately, the OCDETF Executive Office "un-links" any investigation for which sufficient justification has
not been provided. When evaluating disruptions/dismantlements of CPOT-linked organizations, OCDETF
verifies reported information with the investigating agency’s headquarters.

Data Limitations: Investigations of CPOT-level organizations are complex and time-consuming, and the
impact of disrupting/dismantling such a network may not be apparent immediately. In fact, data may lag
behind enforcement activity. For example, a CPOT-linked organization may be disrupted in one FY and
subsequently dismantled in a later year when law enforcement permanently destroys the organization’s ability
to operate.


Provide Oversight to the Bankruptcy Process

Background/Program Objectives: The United States Trustee Program (USTP) is a component of the
Department of Justice that seeks to promote the efficiency and protect the integrity of the Federal bankruptcy
system. To further the public interest in the just, speedy and economical resolution of cases filed under the
Bankruptcy Code, the Program monitors the conduct of bankruptcy parties and private estate trustees, oversees
related administrative functions, and acts to ensure compliance with applicable laws and procedures. It also
identifies and helps investigate bankruptcy fraud and abuse in coordination with United States Attorneys, the
Federal Bureau of Investigation, and other law enforcement agencies. The USTP appoints Trustees who serve
as fiduciaries for bankruptcy estates and administer cases filed under Chapter 7 and Chapter 13. The U.S.
Trustee regulates and monitors the activities of these private trustees and ensures their compliance with
fiduciary standards. To promote the effectiveness of the bankruptcy system and maximize the return to
creditors, the Department targets and reports the percent of assets/funds returned to creditors.

Performance Measure: DISCONTINUED MEASURE: Percent of Assets/Funds Returned to Creditors for
Chapter 7 and Chapter 13

FY 2010 Target: Chapter 7:      58%
                Chapter 13:     84%
FY 2010 Actual: Chapter 7:      57%
                Chapter 13:     82%


Discussion of FY 2010 Results: The USTP’s goal is to return to creditors the maximum amount possible,
recognizing that certain legitimate expenses must be paid, and that returning 100 percent of assets will never
be possible. Funds not disbursed to creditors may include private trustee compensation, professional fees, and
costs associated with administering the bankruptcy case. These costs directly impact on the amount of assets
that are available to be returned.

For Chapter 7 assets returned to creditors, the percentage was slightly below the target level. The USTP
attributes this to abnormally high administrative costs in 2010 due primarily to one highly influential case



                                                  - 18 -
(with highly-valued assets) where the percentage allocated to administrative costs was unusually high.
Without this case, the USTP would have exceeded the performance measure target for FY 2010.

The USTP also did not meet its FY 2010 target for Chapter 13 assets returned to creditors. A recent analysis
of the disbursements indicated that the lower percentage of assets returned is due to a decrease in assets
available for disbursement and an increase in fees paid to debtor attorneys. This reduced the amount that
otherwise could be distributed to creditors. The increased attorney fees account for the majority of the
decrease in the proportion available for distribution to creditors.

The USTP periodically conducts an extensive review of its performance measures with special emphasis on
achieving comprehensive programmatic results as they relate to resource expenditures and needs. Several new
measures were developed that better reflect the mission, outcomes and impacts of the USTP. They will be
reported in the out years. As a result, the performance measure above has been discontinued.




                                               Percent of Assets/Funds
                                               Returned to Creditors for
                                               Chapter 7 and Chapter 13
                       100%


                        75%


                        50%


                        25%


                         0%
                                                                                         FY10   FY10
                               FY02   FY03   FY04    FY05   FY06   FY07   FY08   FY09
                                                                                         Tgt.    Act
                  Chapter 7    57%    57%    58%     59%    63%    61%    60%     56%    58%     57%
                  Chapter 13   86%    85%    86%     86%    87%    86%    84%     82%    84%     82%




Data Definition: Chapter 7 bankruptcy proceedings are those where assets that are not exempt from creditors
are collected and liquidated (reduced to money). Chapter 7 percentages are calculated by dividing the
disbursements to secured creditors, priority creditors, and unsecured creditors by the total disbursements for
the fiscal year. In Chapter 13 cases, debtors repay all or a portion of their debts over a three to five year
period. Chapter 13 percentages are based on the Chapter 13 audited annual reports by dividing the
disbursements to creditors by the total Chapter 13 disbursements.

Data Collection and Storage: The data are collected on an annual or semi-annual basis. For Chapter 7 cases,
the USTP receives trustee distributions reports as part of the Final Account on each Chapter 7 case closed
during the year. The Chapter 7 data are aggregated on a nationwide basis and reported twice a year in January
and July. Chapter 13 data are gathered from the standing Chapter 13 trustees’ annual reports on a fiscal year
basis.

Data Validation and Verification: Data on these annual reports are self-reported by the trustees. However, 

each trustee must sign the reports certifying their accuracy. In Chapter 7 cases, independent auditors 

periodically review the annual reports, in addition to the USTP’s on-site field examinations. Additionally, 




                                                   - 19 -
USTP Field Office staff review the trustee distribution reports. The Field Office and Executive Office staff
performs spot checks on the audited reports to ensure that the coding for the distributions is accurate. They
also verify whether there have been any duplicate payments. Finally, the USTP conducts biannual
performance reviews for all Chapter 7 trustees. In Chapter 13 cases, independent auditors must audit each
report. This indirectly provides an incentive for trustees to accurately report data. In addition, the Executive
Office staff reviews the combined distribution spreadsheet to ensure that the amounts stated coincide with
what is reported in the audit reports.

Data Limitations: Out-year performance cannot be accurately projected, as the USTP has no reliable method
of calculating the disbursements of future bankruptcy cases. Additionally, data are not available until January
(Chapter 7) and April (Chapter 13) following the close of the fiscal year because of the need to audit data
submitted by private trustees prior to reporting.



Improve Criminal Justice System Capabilities

Background/Program Objectives: The principle mission of the Office on Violence Against Women (OVW)
is to provide federal leadership in developing the nation’s capacity to reduce violence against women through
the implementation of the Violence Against Women Act (VAWA). OVW administers financial and technical
assistance to communities around the country that are creating and enhancing programs, policies, and practices
aimed at ending sexual assault, domestic violence, dating violence, and stalking.

The VAWA was designed to improve criminal justice responses to sexual assault, domestic violence, dating
violence, and stalking and to increase the availability of services for victims of these crimes. The VAWA
requires a coordinated community response to violence against women encouraging jurisdictions to bring
together a diverse group of individuals and organizations to share information and to use their distinct roles to
improve community responses to these crimes. The group often includes: victim advocates, police officers,
prosecutors, judges, probation and corrections officials, health care professionals, leaders within faith
communities, survivors of violence against women, and others. The federal law takes a comprehensive
approach to fighting violence against women – combining new penalties to prosecute offenders with programs
to aid victims of such violence.

Performance Measure: Number of people trained (to improve responses to crimes of sexual assault, domestic
violence, dating violence, and/or stalking)

FY 2011 Target: 240,904
FY 2011 Actual Performance: 316,767

Discussion of FY 2011 Results: OVW exceeded its target for the number of people trained to improve
responses to crimes of sexual assault, domestic violence, dating violence, and/or stalking.




                                                  - 20 -
                                            Number of Pe ople Tra ined [OV W]



      360,000
                                                                          314,246     316,767
                                                   292,117
      300,000                                                 276, 646
                                                                                            240,904
                                        229,515
      240,000   208,608
                            188,815
                                                                                                         Actual
      180,000
                                                                                                         Target
      120,000

       60,000

            0
                  FY05       FY06        FY07        FY08        FY09       FY10        FY11




Data Definition: Training is defined as providing information on sexual assault, dating violence, domestic
violence, and stalking that enables a person to improve their response to victims/survivors as it relates to their
role in the system. Training is not an educational presentation or prevention education. Education means
providing general information that will increase public awareness of sexual assault, dating violence, domestic
violence, and stalking. Some examples of education include: presentations to community groups, men’s
groups, parents/guardians, victims/survivors etc. Students, community members, and victims are not reported
as people trained, since they are not professionals responding to victims. All OVW grantees and subgrantees
who provide training must report to OVW the number of OVW funded staff members trained or any trainings
supported by OVW funding. OVW-funded staff attending training events are not counted in this number.

Data Collection and Storage: Data are collected through semi-annual and annual subgrantee progress reports
and on-site monitoring. Data are stored in OVW office files and in computer files. The training population
includes law enforcement officers, victim advocates, attorneys, prosecutors, judges and court personnel,
corrections officers, and other multi-disciplinary professionals.

Data Validation and Verification: The OVW validates and verifies performance measures through a review
of progress reports submitted by grantees, telephone contacts, and on-site monitoring of grantee performance
by grant managers.

Data Limitations: Data are collected through grantee and sub-grantee progress reports which cause data to
lag one year. The time lag is due to the number of steps involved in the data collection and data cleaning and
analyzing process. First, grantees submit their progress report data (semi-annually for all discretionary grant
programs or annually for the Stop Violence Against Women Formula Grant and the Sexual Assault Services
Program after each reporting period [due 30 days after the reporting period for discretionary programs and 90
days after the reporting period for the STOP Formula grant program and the Sexual Assault Services
Program]). In most six-month periods, OVW will receive over 1,000 progress reports. Reports are reviewed
by OVW Program Specialists for completeness, accuracy, and whether the grantee is meeting the goals and
objectives of the grant project. If questions arise regarding the report, the grantee is contacted for clarification
or additional information. This step takes 60 days. After OVW approval of all the reports, the Office of
Justice Program prepares and transfers the bulk data to the University of Maine, Muskie School. (In 2001,
OVW entered into a cooperative agreement with the Muskie School of Public Service’s Catherine E. Cutler
Institute for Child and Family Policy [the Muskie School] to develop and implement state-of-the-art reporting



                                                   - 21 -
tools to capture the effectiveness of VAWA grant funding. The Muskie School handles the data collection,
data cleaning, and data analysis of all grantee and subgrantee reports). The Muskie School then takes a few
months to clean and analyze this raw data for each grant program.

Support Community Policing Initiatives

Background/Program Objectives: The Office of Community Oriented Policing Services (COPS) was
established in 1994 to assist law enforcement agencies in enhancing public safety through the implementation
of community policing strategies. The resources offered by the COPS Office to State, local, and tribal law
enforcement agencies strengthen partnerships for safer communities and increase the capacity of agencies to
prevent, solve, and control crime through the implementation of community policing strategies. COPS Office
community policing resources and initiatives can be grouped into two primary lines of business: Advancing
Community Policing through Grant Resources; and Advancing Community Policing through Knowledge
Resources.
The Advancing Community Policing through Grant Resources line of business provides law enforcement
agencies with grant resources focused on increasing the capacity of those agencies to implement community
policing strategies. These strategies are focused on the three primary elements of community policing:
1) developing community/law enforcement partnerships; 2) developing problem-solving and innovative
approaches to crime issues; and 3) implementing organizational change to build and strengthen community
policing infrastructure. COPS grant funding has provided State, local, and tribal law enforcement agencies
with grants for equipment, technology, officers, and training. Since 1994, COPS grant programs have
provided funding to over 13,000 of the nation’s 18,000 law enforcement agencies.

Similarly, the Advancing Community Policing through Knowledge Resources line of business provides law
enforcement agencies as well as other customers (i.e., community groups, non-profit organizations, academics,
etc.) with knowledge resources focused on increasing the capacity of law enforcement agencies to implement
community policing strategies within the three primary elements of community policing. The knowledge
resources that are developed and distributed by the COPS Office include training, technical assistance,
publications, webcasts, podcasts, conferences and roundtables, best practices that are disseminated through
websites, and various printed and published materials. These knowledge resources assist in preparing officers
and their departments to meet challenges by using community policing strategies, as well as promoting
collaboration between law enforcement and communities to solve problems and build relationships locally.

Performance Measure: Effectiveness rating of COPS knowledge resources in increasing community policing
capacity

FY 2011 Target: 76
FY 2011 Actual Performance: 80

Discussion of FY 2011 Results: The COPS Office redesigned products to include a variety of formats to meet
customers’ needs. Respondents of the FY 2011 Annual Outcome Survey commented that they felt much more
positively about publication resources improving their technological capabilities to prevent, respond and
analyze crime and to institute organizational changes. The COPS Office also held a national conference for
the first time in six years and several hundred resources were distributed to our customers and stakeholders.




                                                - 22 -
                 Effe ctiveness Rat ing of Know ledge Res ources in Increas ing Comm unity Policing
                                                      Capacity

      100.0

                                          77.0         78.5                       80.0
                73.0         75.0                                   75.5                 76.0




       50.0                                                                                           Actual
                                                                                                      Target



        0.0
                FY06         FY07          FY08         FY09         FY10          FY11




Data Definition: Content-based knowledge resources include publication products (e.g., Problem Oriented
Policing guides for police, toolkits, white papers, program evaluations, etc.). Event-based knowledge resources
include training (classroom and web-based), technical assistance, community policing conferences,
roundtables, etc. A knowledge resource recipient is any customer that receives a content-based knowledge
resource product from the COPS Office or attends a knowledge resource event.

Data Collection and Storage: The COPS Office, through the Federal Consulting Group, has asked the CFI
Group, a third party independent research firm, to conduct a survey to determine how COPS knowledge
resources have increased the capacity of customers to implement community policing strategies. The
effectiveness rating is on a scale of 0 to 100 points with 100 being the highest rating. Law enforcement
personnel who received training and technical assistance from COPS sponsored training providers within 4 to
6 months before the survey is conducted and law enforcement personnel who ordered COPS knowledge
products/publications in the 6 months prior to the survey are included in the survey sample. The data is
collected online and stored electronically.

Data Validation and Verification: The data collected is validated electronically as well as by the personnel
from the independent research firm. The research firm completes a comprehensive statistical analysis of the
survey data and sample sizes to ensure that the data provided to the COPS Office is both accurate and reliable.

Data Limitations: The data is collected annually in July and the final survey results are provided to the
COPS Office by the end of August. The potential data limitation would be a low response rate to the survey.
Thus far, the COPS Office has received a high response rate to the survey.




                                                  - 23 -
STRATEGIC GOAL 3: Ensure the Fair and Efficient Administration of Justice
30% of OBDs Net Costs support this Goal.


  STRATEGIC OBJECTIVE 3.3: Provide for the safe, secure, and humane confinement of detained
  persons awaiting trial and/or sentencing and those in the custody of the Federal Prison System.
  STRATEGIC OBJECTIVE 3.5: Adjudicate all immigration cases promptly and impartially in
  accordance with due process.



Provide for the Safe, Secure, and Humane Confinement of Detainees

Background/Program Objectives: The mandate of the Office of the Federal Detention Trustee (OFDT) is to
manage resource allocations, exercise financial supervision of detention operations, and set government-wide
detention policy. OFDT has overall management and responsibility for federal detention services relating to the
detention of federal prisoners in the custodial jurisdiction of the U.S. Marshals Service (USMS).

Costs begin at the time a prisoner is brought into USMS custody and extend through termination of the criminal
proceeding and/or commitment to the Bureau of Prisons (BOP). Detention bed space for federal detainees is
acquired as effectively and efficiently as possible through: (1) federal detention facilities, where the government
pays for construction and operation of the facility through the BOP; (2) Intergovernmental Agreements (IGA)
with state and local jurisdictions who have excess prison/jail bed capacity and where a daily rate is paid for the
use of the bed; and, (3) private jail facilities where a daily rate is paid.

In recent years, DOJ has not been able to rely as much on IGAs and federal facilities to meet the surge in the
detention population as state and local governments are increasingly using their facilities for their own detention
requirements. With space unavailable in areas where more federal bed-space is needed, DOJ has increasingly
turned to the private sector.

Ensuring safe, secure, and humane confinement for federal detainees is critically important. To address the
variance between federal; state and local government; and privately owned and managed facilities, the federal
Performance-Based Detention Standards were developed. To ensure compliance, federal contract vehicles are
written or modified to reflect federal Performance-Based Detention Standards with private contractor
performance compensation based on their ability to demonstrate compliance. The comprehensive Quality
Assurance Review Program provides various methodologies for assessing a facility’s operations to ensure that
the safe, secure, and humane confinement criteria are met, as well as addressing Congress’ concerns for public
safety as it relates to violent prisoners (e.g., Interstate Transportation of Dangerous Criminals Act, also known as
Jenna’s Act).

Performance Measure: Per Day Jail Costs

FY 2010 Revised Actual: $70.56 (Previous Actual: $70.59)

FY 2011 Target: $74.02
FY 2011 Actual: $72.88

Discussion of FY 2011 Results: The actual per day jail cost for FY 2011 was below the target because of 1) a
moratorium on per diem rate increases awarded to state and local facilities providing detention space to the
USMS, and 2) economies of scale realized through greater than anticipated usage of private detention facilities
that provide reduced housing costs for greater facility utilization. The per diem rate moratorium resulted in
cost avoidances during FY 2011.




                                                  - 24 -
                                                            Per Day Jail Costs
                                                                                                                 $74.02
        FY11                                                                                                      $72.88
        FY10                                                                                                  $70. 56
        FY09                                                                                                 $69.01
        FY08                                                                                               $67. 47
        FY07                                                                                         $64.40                    Targ et
        FY06                                                                                        $62.73
                                                                                                                               Actual
        FY05                                                                                      $61.92
        FY04                                                                                      $61.87
        FY03                                                                                      $60.87
        FY02                                                                                    $60.07
            $0.00                           $25.00                           $50.00                            $75.00


  Note: FY 10 actual and FY 11 target data have been updated and do not reflect the numbers reported in FY 2012 Performance and Budget Summary.




Data Definition: Per Day Jail Cost is actual price paid (over a 12-month period) by the USMS to house
federal prisoners in non-federal detention facilities. Average price paid is weighted by actual day usage at
individual detention facilities.

Data Collection and Storage: Data describing the actual price charged by state, local, and private detention
facility operators is maintained by the USMS in their Prisoner Tracking System (PTS) and it is updated on an as-
needed, case-by-case basis when rate changes are implemented. Rate information for specific facilities is
maintained by USMS headquarters staff. For those private facilities where OFDT has a direct contract for bed
space, the effective per diem is calculated using information obtained from OFDT’s Procurement Division. In
conjunction with daily reports to OFDT of prisoners housed, OFDT compiles reports describing the price paid
for non-federal detention space on a weekly and monthly basis. Data are reported on both district and national
levels.

Data Validation and Verification: Data reported to OFDT are validated and verified against monthly reports
describing district-level jail utilization and housing costs prepared by the USMS. For direct contracts, contract
terms are verified by OFDT Procurement staff.

Data Limitations: The limitation is ensuring that USMS district level input into PTS occurs in a timely and
correct manner.




                                                              - 25 -
Adjudicate Immigration Cases Promptly and Impartially


Background/Program Objectives: The Executive Office for Immigration Review (EOIR) has jurisdiction
over various immigration matters relating to the Department of Homeland Security (DHS), aliens, and other
parties. EOIR is comprised of three adjudicating components: the Board of Immigration Appeals (BIA), the
Immigration Courts, and the Office of the Chief Administrative Hearing Officer. EOIR’s mission is to render
timely, fair, and well-considered decisions in the cases brought before it. EOIR’s ability to achieve its mission
is critical to the guarantee of justice and due process in immigration proceedings, and public confidence in the
timeliness and quality of EOIR adjudications. Included in this context are the timely grants of relief from
removal in meritorious cases and the expeditious issuance of orders of removal for criminal and other
inadmissible aliens where no relief is available. To assure mission focus, EOIR has identified adjudication
priorities and set specific time frames for most of its proceedings. These priorities include cases involving
criminal and other detained aliens, and adjudicative time frames for all detained appeals filed with the BIA.
The targets are related to percentages of cases actually completed.

Performance Measure: Percent of EOIR Priority Cases Completed Within Established Time Frames

FY 2011 Target: 85% for Institutional Hearing Program (IHP) and detained immigration court cases and 90%
for detained appeals
FY 2011 Actual
Immigration Court Institutional Hearing Program Cases Completed Prior to Release from Incarceration: 88%

Immigration Court Detained Cases Completed Within 60 Days: 88%

BIA Detained Appeals Completed Within 150 Days: 94%


Discussion of FY 2011 Results: Through careful management of EOIR’s resources, the agency exceeded all

three of its goals for FY 2011. As part of the Department’s priority goal initiative, EOIR has placed its focus 

on continuing to meet its large detained caseload. EOIR also used video teleconferencing when appropriate to 

handle the detained immigration court docket, including Institutional Hearing Program cases. The BIA also

continued to manage its resources carefully to ensure that it exceeded its goal of completing 90 percent of

detained appeals within 150 days. EOIR will continue to look at innovative ways to manage its detained 

docket, including close coordination with DHS.





                  Percent of EOIR Priority Cases Completed Within Established Time Frames

                100%


                 90%


                 80%


                 70%
                                                                                                    FY11    FY11
                        FY02     FY03    FY04    FY05      FY06   FY07     FY08    FY 09   FY10
                                                                                                    Tgt.    Act.
     I HP               84%      86%     88%      89%      92%     86%     91%     90%      87%     85%      88%
     Detained Cases     84%      88%     88%      91%      92%     89%     90%     88%      89%     85%      88%
     Detained Appeals    N/A     N/A      N/A     N/A      N/ A    97%     96%     96%      93%     90%      94%




                                                  - 26 -
Data Definition: The EOIR has defined its priority caseload as two types of immigration court cases (IHP
and detained cases) and one type of Board of Immigration Appeals case (detained appeals). The IHP is a
collaborative effort between EOIR, DHS and various federal, state, and local corrections agencies. The
program permits immigration judges to hold removal hearings inside correctional institutions prior to the alien
completing his or her criminal sentence. Detained aliens are those in the custody of DHS or other entities.

Data Collection and Storage: Data are collected from the Case Access System for EOIR (CASE), a
nationwide case-tracking system at the trial and appellate levels.

Data Validation and Verification: All data entered by courts nationwide are instantaneously transmitted and
stored at EOIR headquarters, which allows for timely and complete data. Data are verified by on-line edits of
data fields. Headquarters and field office staff have manuals that list the routine daily, weekly, and monthly
reports that verify data. Data validation is also performed on a routine basis through data comparisons
between EOIR and DHS databases.

Data Limitations: None known at this time.




                                                 - 27 -
ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE

Internal Control Program
The OBDs management continues to support and commit resources to Departmental component internal
review programs. The objective of the OBDs internal control program is to provide reasonable assurance that
operations are effective, efficient, and comply with applicable laws and regulations; financial reporting is
reliable; and assets are safeguarded against waste, loss, and unauthorized use. OBDs management identifies
issues of concern through a strong network of oversight councils and internal review teams. These include the
Justice Management Division’s (JMD) Internal Review and Evaluation Office and Quality Control and
Compliance Group and the Executive Office of United States Attorneys’ Evaluation and Review Staff. OBDs
management also considers reports issued by the Office of the Inspector General (OIG) in its evaluation of
internal control.

The OBDs internal control has significantly improved through the corrective actions implemented by
management. The OBDs commitment to accountability, transparency, and compliance with applicable laws
and regulations is evidenced by efforts to establish reasonable controls, make sound determinations on
corrective actions, and verify and validate the results. For example, on a quarterly basis, OBDs components
review and certify their obligations to the JMD Finance Staff and report on their financial operations, systems,
and controls. This commitment is further evidenced by the many control improvements and significant actions
taken by Departmental leadership in response to OMB initiatives and OIG recommendations.

MANAGEMENT ASSURANCES

Federal Managers’ Financial Integrity Act of 1982
The Federal Managers’ Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the statutory basis
for management’s responsibility for and assessment of internal accounting and administrative controls. Such
controls include program, operational, and administrative areas, as well as accounting and financial
management. The Integrity Act requires federal agencies to establish controls that reasonably ensure
obligations and costs are in compliance with applicable law; funds, property, and other assets are safeguarded
against waste, loss, unauthorized use, or misappropriation; and revenues and expenditures are properly
recorded and accounted for to maintain accountability over the assets. The Integrity Act also requires agencies
to annually assess and report on the internal controls that protect the integrity of federal programs (FMFIA § 2)
and whether financial management systems conform to related requirements (FMFIA § 4).

Guidance for implementing the Integrity Act is provided through OMB Circular A-123. In addition to
requiring agencies to provide an assurance statement on the effectiveness of programmatic internal controls
and conformance with financial systems requirements, the Circular requires agencies to provide an assurance
statement on the effectiveness of internal control over financial reporting. To provide these assurances to the
President, the Attorney General depends on information from component heads regarding their component’s
internal controls.

FMFIA Assurance Statement

OBDs management is responsible for establishing and maintaining effective internal controls and financial
management systems that meet the objectives of the FMFIA. In accordance with OMB Circular A-123,
OBDs management conducted its annual assessment of the effectiveness of internal controls to support
effective and efficient programmatic operations, reliable financial reporting, and compliance with applicable
laws and regulations (FMFIA § 2). OBDs management also assessed whether its financial management
systems conform to financial systems requirements (FMFIA § 4). Based on the results of the assessments,



                                                  - 28 -
OBDs management can provide reasonable assurance that its internal controls and financial management
systems meet the objectives of the FMFIA. Internal controls were operating effectively as of September 30,
2011, and the assessments found no material weaknesses in the design or operation of the controls or any
systems non-conformances requiring reporting.

In accordance with Appendix A of OMB Circular A-123, OBDs management conducted its assessment of the
effectiveness of internal control over financial reporting, which included the safeguarding of assets and
compliance with applicable laws and regulations. Based on the results of this assessment, OBD management
can provide reasonable assurance that the OBDs internal control over financial reporting was operating
effectively as of June 30, 2011, and no material weaknesses were found in the design or operation of the
controls.

Financial Systems and Controls
The Financial Management Information System (FMIS2) is the official automated financial system for the
OBDs. The system, which is a certified and accredited financial management system, supports the full range
of financial management requirements, including the general ledger function, budget execution, travel, credit
card purchases, and third-party and Treasury payments. The FMIS2 supports centralized and decentralized
vendor and travel processing and conforms to federal core financial system requirements. The FMIS2 includes
security access control tables and table monitoring reports, an automated FMIS2 user identification re-
certification process, and electronic funds transfer banking monitoring reports.

Legal Compliance
Federal Financial Management Improvement Act of 1996

The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to advance federal
financial management by ensuring that federal financial management systems provide accurate, reliable, and
timely financial management information to the government’s managers. Compliance with the FFMIA
provides the basis for the continuing use of reliable financial management information by program managers,
as well as by the President, Congress, and public. The FFMIA requires agencies to have financial
management systems that substantially comply with federal financial management system requirements,
applicable federal accounting standards, and the application of the U.S. Government Standard General Ledger
at the transaction level. Guidance for implementing the FFMIA is provided through OMB Circular A-127.

FFMIA Compliance Determination

During FY 2011, OBDs management assessed its financial management systems for compliance with the
FFMIA and determined that, when taken as a whole, they substantially comply with the FFMIA. This
determination is based on the results of FISMA reviews and testing performed for OMB Circular A-123,
Appendix A. Consideration was also given to issues identified during the financial statement audit.




                                                - 29 -
POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

The Department’s leadership is committed to ensuring its programs and activities will continue to be targeted
to meeting the dynamic demands of the changing legal, economic, and technological environments of the
future.

James Zadroga 9/11 Health and Compensation Act of 2010
•	 Potential increase in DOJ workload resulting from the James Zadroga 9/11 Health and Compensation Act
   of 2010. The Act provides compensation to any individual (or personal representative of a deceased
   individual) who suffered physical harm as a result of the terrorist-related aircraft crashes of September 11,
   2001, or the debris removal efforts that took place in the immediate aftermath. The Department could see
   a high volume of claims in the near future, FY 2012-2013.

Immigration Enforcement
•	 As the Department of Homeland Security hires additional border patrol agents, the numbers of illegal
   immigrants and criminal smugglers detained for attempting to cross the border will undoubtedly increase.
   Increased apprehension will in turn require increased Department resources to account for the additional
   detainees. EOIR in particular would require additional immigration judges to keep pace with the increased
   caseload, area U.S. Attorneys’ offices could also see increased prosecution caseloads, and the Civil
   Division could see an increase in appeals of removal decisions.

Technology
•	 Advances in high-speed telecommunications, computers, and other technologies are creating new
   opportunities for criminals, new classes of crimes, and new challenges for law enforcement.

Economy
•	 Possible increases in consumer debt may affect bankruptcy filings.
•	 The Department may experience an increased role in the federal financial recovery effort through criminal
   and civil litigation.
•	 The interconnected nature of the world’s economy is increasing opportunities for criminal activity,
   including money laundering, white-collar crime, and alien smuggling.

Government
•	 Changes in the fiscal posture or policies of State and local governments could have dramatic effects on the
   capacity of State and local governments to remain effective law enforcement partners.

Globalization
•	 Issues of criminal and civil justice increasingly transcend national boundaries, require the cooperation of
   foreign governments, and involve treaty obligations, multinational environment and trade agreements, and
   other foreign policy concerns.

Social-Demographic
•	 The numbers of adolescents and young adults, now the most crime-prone segment of the population, are
   expected to grow rapidly over the next several years.

The Unpredictable
•	 Changes in federal laws may affect responsibilities and workload.
•	 Much of the litigation caseload is defensive. The OBDs have little control over the number, size, and
   complexity of the civil lawsuits they must defend.
•	 Response to unanticipated natural disasters and their aftermath may require the Department to divert
   resources in an effort to deter, investigate, and prosecute disaster-related federal crimes such as charity
   fraud, insurance fraud, and other crimes.



                                                  - 30 -
OTHER MANAGEMENT INFORMATION, INITIATIVES, AND ISSUES

The American Recovery and Reinvestment Act of 2009
•	 OBDs received approximately $1.2 billion in funding under the American Recovery and Reinvestment Act
   of 2009. OBDs are fully committed to ensuring that the funds received are expended responsibly and in a
   transparent manner to further job creation, economic recovery, and other purposes of the Act. Below is a
   chart showing appropriations, obligations, and outlays by component as of September 30, 2011:

Component                   Appropriation Amount         Obligations                  Outlays
OVW                         $    225,563,910             $     223,066,803            $     162,043,383
COPS                        $ 1,002,506,265              $     996,366,615            $     422,187,872
OIG                         $      2,000,000             $         900,000            $         900,000
OBDs Total                  $ 1,230,070,175              $     220,333,418            $     585,131,255



IMPROPER PAYMENTS ELIMINATION AND RECOVERY ACT (IPERA)
REPORTING

In accordance with OMB Circular A-123, Appendix C, Requirements for Effective Measurement and
Remediation of Improper Payments, and the Departmental guidance for implementing the Improper Payments
Elimination and Recovery Act (IPERA), the Department implemented a top-down approach to assess the risk
of significant improper payments across all five of the Department’s mission-aligned programs, and to identify
and recapture improper payments through a payment recapture audit program. The approach promotes
consistency across the Department and enhances internal control related to preventing, detecting, and
recovering improper payments. Because of the OMB requirement to assess risk and report payment recapture
audit activities by agency programs, the results of the Department’s risk assessment and recapture activities are
reported at the Department-level only.

In accordance with the Departmental approach for implementing IPERA, the OBDs assessed its activities for
susceptibility to significant improper payments. The OBDs also conducted its payment recapture audit
program in accordance with the Departmental approach. The OBDs provided the results of both the risk
assessment and payment recapture audit activities to the Department for the Department-level reporting in the
FY 2011 Performance and Accountability Report.

LIMITATIONS OF THE FINANCIAL STATEMENTS

•	 The financial statements have been prepared to report the financial position and results of operations of
   OBDs components, pursuant to the requirements of 31 U.S.C. 3515(b).

•	 While the financial statements have been prepared from the books and records of the OBDs in accordance
   with the U.S. generally accepted accounting principles for federal entities and the formats prescribed by
   OMB, the financial statements are in addition to the financial reports used to monitor and control
   budgetary resources which are prepared from the same books and records.

•	 The financial statements should be read with the realization that they are for a component of the U.S.
   Government, a sovereign entity.




                                                  - 31 -
This page intentionally left blank.





           - 32 -
Independent Auditors’ Reports





          - 33 -
This page intentionally left blank.





           - 34 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                        Independent Auditors’ Report on Financial Statements


Acting Inspector General
U.S. Department of Justice

Chief Financial Officer
Offices, Boards and Divisions
U.S. Department of Justice

We have audited the accompanying consolidated balance sheets of the U.S. Department of Justice Offices,
Boards and Divisions (OBDs) as of September 30, 2011 and 2010, and the related consolidated statements
of net cost and changes in net position, and the combined statements of budgetary resources and custodial
activity (hereinafter referred to as “consolidated financial statements”) for the years then ended. These
consolidated financial statements are the responsibility of the OBDs’ management. Our responsibility is to
express an opinion on these consolidated financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the OBDs’ internal control over financial reporting. Accordingly, we express no such opinion. An audit
also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
consolidated financial statements, assessing the accounting principles used and significant estimates made
by management, as well as evaluating the overall consolidated financial statement presentation. We believe
that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Justice Offices, Boards and Divisions as of
September 30, 2011 and 2010, and its net costs, changes in net position, budgetary resources, and custodial
activity for the years then ended in conformity with U.S. generally accepted accounting principles.

As discussed in Note 22 to the consolidated financial statements, the OBDs changed its method of
reporting of Department of Treasury General Fund Receipts in fiscal year 2011.

The information in the Management’s Discussion and Analysis and Required Supplementary Information
sections is not a required part of the consolidated financial statements, but is supplementary information
required by U.S. generally accepted accounting principles. We have applied certain limited procedures,
which consisted principally of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information and, accordingly, we express
no opinion on it.


                                                       - 35 -
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Financial Statements
Page 2


In accordance with Government Auditing Standards, we have also issued our reports dated November 8,
2011, on our consideration of the OBDs’ internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. Those reports are an integral part of an audit performed
in accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




November 8, 2011




                                              - 36 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control over Financial Reporting


Acting Inspector General
U.S. Department of Justice

Chief Financial Officer
Offices, Boards and Divisions
U.S. Department Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice Offices, Boards and
Divisions (OBDs) as of September 30, 2011 and 2010, and the related consolidated statements of net cost
and changes in net position, and the combined statements of budgetary resources and custodial activity
(hereinafter referred to as “consolidated financial statements”) for the years then ended, and have issued
our report thereon dated November 8, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

The management of the OBDs is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2011 audit, we considered the OBDs’ internal control over
financial reporting by obtaining an understanding of the OBDs’ internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the consolidated
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the OBDs’
internal control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
the OBDs’ internal control over financial reporting. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2011 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.



                                                       - 37 -
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 2


This report is intended solely for the information and use of the OBDs’ management, the U.S. Department
of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 8, 2011




                                            - 38 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


Acting Inspector General
U.S. Department of Justice

Chief Financial Officer
Offices, Boards and Divisions
U.S. Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice Offices, Boards and
Divisions (OBDs) as of September 30, 2011 and 2010, and the related consolidated statements of net cost
and changes in net position, and the combined statements of budgetary resources and custodial activity
(hereinafter referred to as “consolidated financial statements”) for the years then ended, and have issued
our report thereon dated November 8, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

The management of the OBDs is responsible for complying with laws, regulations, contracts, and grant
agreements applicable to the OBDs. As part of obtaining reasonable assurance about whether the OBDs’
fiscal year 2011 consolidated financial statements are free of material misstatement, we performed tests of
the OBDs’ compliance with certain provisions of laws, regulations, contracts, and grant agreements,
noncompliance with which could have a direct and material effect on the determination of the consolidated
financial statement amounts, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 07-04, including the provisions referred to in Section 803(a) of the Federal Financial
Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations, contracts,
and grant agreements applicable to the OBDs. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, exclusive of those referred to
in FFMIA, disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the OBDs’ financial management
systems did not substantially comply with the (1) Federal financial management system requirements,
(2) applicable Federal accounting standards, and (3) application of the United States Government Standard
General Ledger at the transaction level.




                                                       - 39 -
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Compliance and Other Matters
Page 2


This report is intended solely for the information and use of the OBDs’ management, the U.S. Department
of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 8, 2011




                                            - 40 -
          Principal Financial Statements
                and Related Notes

See Independent Auditors’ Report on Financial Statements




                       - 41 -
                                             U. S. Department of Justice

                                            Offices, Boards and Divisions

                                             Consolidated Balance Sheets

                                          As of September 30, 2011 and 2010

Dollars in Thousands                                                               2011             2010

ASSETS (Note 2)
     Intragovernmental
         Fund Balance with U.S. Treasury (Note 3)                          $   5,223,163    $   5,825,079
         Investments, Net (Note 5)                                               302,328          270,271
         Accounts Receivable, Net (Note 6)                                       350,778          291,193
         Other Assets (Note 9)                                                    95,294          134,244
     Total Intragovernmental                                                   5,971,563        6,520,787

      Cash and Monetary Assets (Note 4)                                               46               46
      Accounts Receivable, Net (Note 6)                                           59,086           19,769
      Inventory and Related Property, Net (Note 7)                                   106              106
      General Property, Plant and Equipment, Net (Note 8)                        280,102          231,301
      Advances and Prepayments                                                     1,978            8,225
Total Assets                                                               $   6,312,881    $   6,780,234

LIABILITIES (Note 10)
     Intragovernmental
         Accounts Payable                                                  $     317,501    $     306,300
         Accrued Federal Employees' Compensation Act Liabilities                   9,780            9,265
         Custodial Liabilities (Note 18)                                         599,810          329,588
         Other Liabilities (Note 12)                                              83,592          569,083
     Total Intragovernmental                                                   1,010,683        1,214,236

       Accounts Payable                                                          307,561          363,569
       Accrued Grant Liabilities                                                 245,174          147,652
       Actuarial Federal Employees' Compensation Act Liabilities                  51,746           50,022
       Accrued Payroll and Benefits                                              137,132          128,797
       Accrued Annual and Compensatory Leave Liabilities                         181,586          183,120
       Contingent Liabilities (Note 13)                                                -            4,738
       Radiation Exposure Compensation Act Liabilities (Note 19)                 535,838          541,784
       Other Liabilities (Note 12)                                               152,987          118,879
Total Liabilities                                                          $   2,622,707    $   2,752,797

NET POSITION
      Unexpended Appropriations - Earmarked Funds (Note 14)                $      21,727    $      19,585
      Unexpended Appropriations - All Other Funds                              3,472,362        3,979,216
      Cumulative Results of Operations - Earmarked Funds (Note 14)               252,629          171,475
      Cumulative Results of Operations - All Other Funds                         (56,544)        (142,839)
Total Net Position                                                         $   3,690,174    $   4,027,437
Total Liabilities and Net Position                                         $   6,312,881    $   6,780,234




                                                            - 42 -
                                                 U. S. Department of Justice

                                                Offices, Boards and Divisions

                                            Consolidated Statements of Net Cost

                                  For the Fiscal Years Ended September 30, 2011 and 2010

Dollars in Thousands

                                             Gross Costs                                          Less: Earned Revenues                         Net Cost of
                        Intra­               With the                                     Intra-        With the                                Operations
           FY        governmental             Public                 Total             governmental      Public                 Total            (Note 15)



Goal 1     2011     $       112,985      $       265,340      $           378,325      $       93,776         $    22,433   $     116,209   $        262,116
           2010     $        82,443      $       277,500      $           359,943      $       90,793         $    19,439   $     110,232   $        249,711



Goal 2     2011           1,868,383            3,990,335                5,858,718             575,651             426,958       1,002,609          4,856,109
           2010           1,799,980            3,963,457                5,763,437             563,603             404,621         968,224          4,795,213



Goal 3     2011           1,736,875              705,044                2,441,919             158,055              45,456         203,511          2,238,408
           2010           1,535,834              734,095                2,269,929             141,722              39,082         180,804          2,089,125

Total      2011     $     3,718,243      $     4,960,719      $         8,678,962      $      827,482         $   494,847   $   1,322,329   $      7,356,633
           2010     $     3,418,257      $     4,975,052      $         8,393,309      $      796,118         $   463,142   $   1,259,260   $      7,134,049


Goal 1   Prevent Terrorism and Promote the Nation's Security
Goal 2   Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
Goal 3   Ensure the Fair and Efficient Administration of Justice




                                                                             - 43 -
                                   U. S. Department of Justice

                                  Offices, Boards and Divisions

                        Consolidated Statements of Changes in Net Position

                          For the Fiscal Year Ended September 30, 2011

Dollars in Thousands

                                                                        2011
                                                  Earmarked           All Other
                                                    Funds              Funds              Total
Unexpended Appropriations
  Beginning Balances                          $         19,585    $     3,979,216     $   3,998,801

  Budgetary Financing Sources
    Appropriations Received                             71,746           6,901,999         6,973,745
    Appropriations Transferred-In/Out                        -            (187,823)         (187,823)
    Other Adjustments                                     (326)            (23,338)          (23,664)
    Appropriations Used                                (69,278)         (7,197,692)       (7,266,970)

  Total Budgetary Financing Sources                      2,142           (506,854)         (504,712)

  Unexpended Appropriations                   $         21,727    $     3,472,362     $   3,494,089



Cumulative Results of Operations
  Beginning Balances                          $        171,475    $      (142,839)    $      28,636

  Budgetary Financing Sources
    Other Adjustments                                        -            (26,000)          (26,000)
    Appropriations Used                                 69,278          7,197,692         7,266,970
    Nonexchange Revenues                                 1,070                  -             1,070
    Transfers-In/Out Without Reimbursement                   -            113,735           113,735

  Other Financing Sources
    Transfers-In/Out Without Reimbursement                    -           (53,304)          (53,304)
    Imputed Financing from Costs Absorbed
        by Others (Note 16)                              1,365            220,246           221,611
  Total Financing Sources                               71,713          7,452,369         7,524,082

  Net Cost of Operations                                 9,441          (7,366,074)       (7,356,633)

  Net Change                                            81,154             86,295           167,449

  Cumulative Results of Operations            $        252,629    $       (56,544)    $     196,085

Net Position                                  $        274,356    $     3,415,818     $   3,690,174




                                              - 44 -
                                   U. S. Department of Justice

                                  Offices, Boards and Divisions

                  Consolidated Statements of Changes in Net Position (continued)

                          For the Fiscal Year Ended September 30, 2010

Dollars in Thousands

                                                                        2010
                                                  Earmarked           All Other
                                                    Funds              Funds              Total
Unexpended Appropriations
  Beginning Balances                          $         22,207    $     3,782,236     $   3,804,443

  Budgetary Financing Sources
    Appropriations Received                             90,312           7,220,403         7,310,715
    Appropriations Transferred-In/Out                        -            (209,609)         (209,609)
    Other Adjustments                                   (9,001)            (40,750)          (49,751)
    Appropriations Used                                (83,933)         (6,773,064)       (6,856,997)

  Total Budgetary Financing Sources                     (2,622)           196,980           194,358

  Unexpended Appropriations                   $         19,585    $     3,979,216     $   3,998,801



Cumulative Results of Operations
  Beginning Balances                          $        119,668    $        29,192     $     148,860

  Budgetary Financing Sources
    Appropriations Used                                 83,933          6,773,064         6,856,997
    Nonexchange Revenues                                   319                  -               319
    Transfers-In/Out Without Reimbursement                   -             75,097            75,097

  Other Financing Sources
    Transfers-In/Out Without Reimbursement                    -           (81,783)          (81,783)
    Imputed Financing from Costs Absorbed
        by Others (Note 16)                              1,301            161,894           163,195
  Total Financing Sources                               85,553          6,928,272         7,013,825

  Net Cost of Operations                               (33,746)         (7,100,303)       (7,134,049)

  Net Change                                            51,807           (172,031)         (120,224)

  Cumulative Results of Operations            $        171,475    $      (142,839)    $      28,636

Net Position                                  $        191,060    $     3,836,377     $   4,027,437




                                              - 45 -
                                      U. S. Department of Justice

                                     Offices, Boards and Divisions

                            Combined Statements of Budgetary Resources

                       For the Fiscal Years Ended September 30, 2011 and 2010

Dollars in Thousands                                                                 2011              2010
Budgetary Resources
  Unobligated Balance, Brought Forward, October 1                          $     929,953     $     653,984

   Recoveries of Prior Year Unpaid Obligations                                   206,483           225,639
   Budget Authority
     Appropriations Received                                                    7,255,995         7,589,965
     Spending Authority from Offsetting Collections
        Earned
           Collected                                                            2,095,196         2,135,632
           Change in Receivables from Federal Sources                              43,636           (44,709)
        Change in Unfilled Customer Orders
           Advance Received                                                        (8,150)           7,520
           Without Advance from Federal Sources                                   (21,863)          92,950
   Subtotal Budget Authority                                                    9,364,814         9,781,358

   Nonexpenditure Transfers, Net, Anticipated and Actual                          (74,088)         (134,512)
   Temporarily not Available Pursuant to Public Law                                 (439)                 -
   Permanently not Available                                                      (57,709)          (50,303)
Total Budgetary Resources (Note 17)                                        $   10,369,014    $   10,476,166

Status of Budgetary Resources
   Obligations Incurred
      Direct                                                               $    7,259,310    $    7,327,826
      Reimbursable                                                              2,295,381         2,218,387
         Total Obligations Incurred (Note 17)                                   9,554,691         9,546,213
   Unobligated Balance - Available
      Apportioned                                                                 554,020           667,416
  Unobligated Balance not Available                                               260,303           262,537
Total Status of Budgetary Resources                                        $   10,369,014    $   10,476,166

Change in Obligated Balance
  Obligated Balance, Net - Brought Forward, October 1
     Unpaid Obligations                                                    $    4,874,461    $    4,771,602
     Less: Uncollected Customer Payments from Federal Sources                     794,774           746,533
        Total Unpaid Obligated Balance, Net - Brought Forward, October 1        4,079,687         4,025,069
   Obligations Incurred, Net                                                    9,554,691         9,546,213
   Less: Gross Outlays                                                          9,658,520         9,217,715
   Less: Recoveries of Prior Year Unpaid Obligations, Actual                      206,483           225,639
   Change in Uncollected Customer Payments from Federal Sources                   (21,773)          (48,241)

   Obligated Balance, Net - End of Period
     Unpaid Obligations                                                         4,564,149         4,874,461
     Less: Uncollected Customer Payments from Federal Sources                     816,547           794,774
         Total Unpaid Obligated Balance, Net - End of Period               $    3,747,602    $    4,079,687

Net Outlays
  Gross Outlays                                                            $    9,658,520    $    9,217,715
  Less: Offsetting Collections                                                  2,087,046         2,143,152
  Less: Distributed Offsetting Receipts (Note 17)                                 777,312           691,754
Total Net Outlays (Note 17)                                                $    6,794,162    $    6,382,809




                                                        - 46 -
                                   U. S. Department of Justice

                                  Offices, Boards and Divisions

                           Combined Statements of Custodial Activity

                    For the Fiscal Years Ended September 30, 2011 and 2010

Dollars in Thousands                                                      2011              2010
Revenue Activity
 Sources of Cash Collections
    Delinquent Federal Civil Debts as Required by the Federal
         Debt Recovery Act of 1986                              $   5,222,083     $   4,789,655
    Fines, Penalties and Restitution Payments - Criminal               38,255            33,004
    Miscellaneous                                                          59                81
 Total Custodial Revenue                                            5,260,397         4,822,740
Disposition of Collections
    Transferred to Federal Agencies
         U.S. Department of Agriculture                                (96,346)          (84,620)
         U.S. Department of Commerce                                    (5,103)           (1,725)
         U.S. Department of the Interior                               (29,959)         (283,244)
         U.S. Department of Justice                                    (81,181)          (24,866)
         U.S. Department of Labor                                         (736)           (3,537)
         U.S. Postal Service                                            (4,362)           (6,762)
         U.S. Department of State                                       (8,535)             (199)
         U.S. Department of the Treasury                              (130,778)         (571,742)
         Office of Personnel Management                                (58,144)          (46,636)
         Federal Communications Commission                             (14,727)           (2,693)
         Social Security Administration                                 (2,726)           (3,558)
         Smithsonian Institution                                          (190)             (209)
         U.S. Department of Veterans Affairs                           (28,703)          (35,068)
         General Services Administration                               (88,447)           (4,008)
         Securities and Exchange Commission                                 (3)               (2)
         Federal Deposit Insurance Corporation                             (71)              (42)
         Railroad Retirement Board                                        (100)             (143)
         Environmental Protection Agency                              (341,267)         (720,010)
         U.S. Department of Transportation                              (7,236)             (765)
         U.S. Department of Homeland Security                          (66,843)          (30,872)
         Agency for International Development                          (22,233)           (2,155)
         Small Business Administration                                 (10,447)           (5,360)
         U.S. Department of Health and Human Services               (2,001,923)       (1,528,861)
         National Aeronautics and Space Administration                  (3,792)           (2,859)
         Export-Import Bank of the United States                       (24,643)           (4,704)
         U.S. Department of Housing and Urban Development              (11,099)          (25,985)
         U.S. Department of Energy                                      (2,093)           (2,281)
         U.S. Department of Education                                  (55,431)          (63,002)
         Independent Agencies                                          (67,264)          (54,493)
         Treasury General Fund (Note 22)                              (618,814)         (485,768)
         U.S. Department of Defense                                   (173,894)         (112,640)
    Transferred to the Public                                         (516,597)         (391,304)
    (Increase)/Decrease in Amounts Yet to be Transferred              (304,330)         (210,225)
    Refunds and Other Payments                                        (364,312)          (10,627)
    Retained by the Reporting Entity                                  (118,068)         (101,775)

Net Custodial Activity (Note 18)                                $            -    $            -




                                                     - 47 -
                                   U.S. Department of Justice

                                 Offices, Boards and Divisions

                                Notes to the Financial Statements

                                       (Dollars in Thousands, Except as Noted)


Note 1. Summary of Significant Accounting Policies

A. Reporting Entity

  The Offices, Boards and Divisions (OBDs) are comprised of thirty-seven enforcement, litigating and policy-
  making components with a variety of missions and programs. Included among these components are the
  following:

  Offices                                           Boards
  Office of the Attorney General                    U.S. Parole Commission
  Office of the Deputy Attorney General             Foreign Claims Settlement Commission
  Office of the Associate Attorney General
  Office of the Solicitor General                   Divisions
  Office of Legal Counsel                           Antitrust Division
  Office of Legislative Affairs                     Civil Division
  Office of Professional Responsibility             Civil Rights Division
  Office of Legal Policy                            Criminal Division
  Office of Public Affairs                          Environment and Natural Resources Division
  Office of the Pardon Attorney                     Tax Division
  Office of the Inspector General                   Justice Management Division (JMD)
  Community Relations Service                         (including the Working Capital Fund)
  Executive Office for U.S. Attorneys (EOUSA)       National Security Division
  U.S. Attorneys
  Office of Dispute Resolution
  INTERPOL – U.S. National Central Bureau
  Executive Office for Immigration Review
  Executive Office for U.S. Trustees (EOUST)
  Office of Intergovernmental and Public Liaison
  Office of Information Policy
  Office of Community Oriented Policing Services (COPS)
  National Drug Intelligence Center
  Office of the Federal Detention Trustee
  Professional Responsibility Advisory Office
  Office on Violence Against Women
  Executive Office for Organized Crime Drug Enforcement Task Forces
  Office of Tribal Justice




                             These notes are an integral part of the financial statements.


                                                         - 48 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


B. Basis of Presentation

    These financial statements have been prepared from the books and records of the OBDs in accordance with
    United States generally accepted accounting principles issued by the Federal Accounting Standards Advisory
    Board (FASAB) and presentation guidelines in the Office of Management and Budget (OMB) Circular
    A-136, Financial Reporting Requirements. These financial statements are different from the financial reports
    prepared pursuant to OMB directives, which are used to monitor and control the use of the OBDs’ budgetary
    resources. To ensure that the OBDs financial statements are meaningful at the entity level and to enhance
    reporting consistency within the Department, Other Assets and Other Liabilities as defined by OMB Circular
    A-136 have been disaggregated on the balance sheet. These include Advances and Prepayments, Accrued
    Federal Employees’ Compensation Act (FECA) Liabilities, Custodial Liabilities, Accrued Payroll and
    Benefits, Accrued Annual and Compensatory Leave Liabilities, Contingent Liabilities, Radiation Exposure
    Compensation Act Liabilities, and Accrued Grant Liabilities.

C. Basis of Consolidation

    The consolidated/combined financial statements include all funds and programs under the OBDs control,
    with the exception of the Assets Forfeiture Fund and Seized Asset Deposit Fund, for which separate financial
    statements are prepared. All significant proprietary intra-entity transactions and balances have been
    eliminated in consolidation. The Statements of Budgetary Resources and Statements of Custodial Activity
    are combined statements for FYs 2011 and 2010, and as such, intra-entity transactions have not been
    eliminated. The consolidated financial statements do not include centrally administered assets and liabilities
    related to the Federal Government as a whole, such as General Services Administration (GSA) owned
    property and equipment and borrowings from the public by the U.S. Treasury (the Treasury), which may in
    part be attributable to the OBDs.

D. Basis of Accounting

   Transactions are recorded on the accrual and budgetary bases of accounting. Under the accrual basis,
   revenues are recorded when earned and expenses are recorded when incurred, regardless of when cash is
   exchanged. Under the budgetary basis, however, funds availability is recorded based upon legal
   considerations and constraints. As a result, certain line items on the proprietary financial statements may not
   equal similar line items on the budgetary financial statements.

   Custodial activity reported on the Combined Statements of Custodial Activity is prepared on the modified cash
   basis of accounting. Under the modified cash basis of accounting, receivables and payables are not accrued
   with exception of interest earned on invested funds. Receipts are recorded when received with the exception
   of interest, and disbursements are recorded when paid. Interest is recorded when earned, including
   accretion/amortization of investment discounts and premiums. Investments are stated at amortized cost.




                               These notes are an integral part of the financial statements.


                                                           - 49 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


E. Non-Entity Assets

  Non-entity assets are not available for use by the OBDs and consist of settlement funds and the related

  investment revenue and restricted undisbursed civil and criminal debt collections.


F. Fund Balance with U.S. Treasury and Cash

  Fund Balance with the Treasury represents primarily appropriated, revolving, and trust funds available to pay
  current liabilities and finance future authorized purchases. The OBDs do not, for the most part, maintain cash
  in commercial bank accounts. Certain receipts, however, are processed by commercial banks for deposit to
  individual accounts maintained at the Treasury. The Treasury, as directed by authorized Department
  accountable officers, processes cash receipts and disbursements.

G. Investments

   The EOUSA, EOUST, and Radiation Exposure Compensation Trust Fund (RECTF) are the only components
   with investment authority. RECTF had no investment activities for FY 2011 or 2010. Investments are
   reported on the Consolidated Balance Sheets at their net value, the face value plus or minus any unamortized
   premium and discount. Premiums and discounts are amortized over the life of the Treasury security. The
   interest method is used for the amortization of premium and discount of Treasury notes and the straight-line
   method is used for Treasury bills. Both EOUSA and EOUST intend to hold investments to maturity.
   Accordingly, no provision is made for unrealized gains or losses on these securities. The market value of the
   investments is the current market value at the end of the reporting period. It is calculated by using the “End of
   Day” price listed in the FedInvest Price File, which can be found on the Bureau of Public Debt website
   (http://www.fedinvest.gov).

H. Accounts Receivable

   Net accounts receivable include reimbursement and refund receivables due from federal agencies and the
   public. Generally, all receivables from federal agencies are considered fully collectible. An allowance for
   doubtful accounts is established (see Note 6) for receivables due from the public. An allowance for
   uncollectible accounts was established as of September 30, 2011 and 2010 for Chapter 11 accounts receivable
   reported by the EOUST. The methodology for calculating the allowance is determined by calculating the
   average of prior years’ net write-off amounts.

I. Inventory and Related Property

  Inventory consists of new and rehabilitated office furniture, including chairs, tables, credenzas, lamps and file
  cabinets, which are to be sold in normal operations of the OBDs. The value of new inventory is determined
  on the basis of acquisition cost. The value of rehabilitated inventory is determined on the basis of
  rehabilitation and transportation costs. As inventory is sold, expenses are recorded. The value of inventory on
  hand at year-end is based on the historical cost.



                               These notes are an integral part of the financial statements.


                                                           - 50 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


J. General Property, Plant and Equipment

   The GSA, which charges rent equivalent to the commercial rental rates for similar properties, provides
   buildings in which the OBDs operate. The Department does not recognize depreciation on buildings and
   equipment provided by the GSA.

   Personal property, excluding internal use software, is capitalized when the initial cost of acquiring the asset is
   $25 or more and the asset has an estimated useful life of two or more years.

   Internal use software is capitalized when developmental phase costs or enhancement costs are $500 or more
   and the asset has an estimated useful life of two or more years. Real property and leasehold improvements are
   capitalized when the initial cost of acquiring the asset is $100 or more, and the asset has an estimated useful
   life of two or more years. Depreciation is calculated using the straight-line method over the estimated useful
   lives of the assets, which, for most motor vehicles, equipment, and internal use software, range from
   5 to 12 years.

K. Advances and Prepayments

   Advances to government agencies represent amounts paid to government agencies that have not yet provided
   the service under reimbursement agreements for mission support services. Advances and Prepayments on the
   Consolidated Balance Sheets are comprised predominantly of COPS funds disbursed to grantees in excess of
   the total expenditures reported by those grantees. In addition, funds provided by COPS to the Office of
   Justice Programs (OJP) that have not yet been expended with grantees are included in Intragovernmental
   Other Assets on the Consolidated Balance Sheets. A nominal amount of the OBDs advance balance is
   comprised of funds advanced to the OBDs employees for meals and incidental expenses on official travel.

L. Liabilities

   Liabilities represent the amount of monies or other resources that are likely to be paid by the OBDs as the
   result of a transaction or event that has already occurred. However, no liability can be paid by a Department
   entity absent proper budget authority. Liabilities for which an appropriation has not been enacted are
   classified as liabilities not covered by budgetary resources, and there is no certainty that corresponding future
   appropriations will be enacted. Liabilities arising from other than contracts can be abrogated by the
   Government, acting in its sovereign capacity.

M. Accrued Grant Liabilities

   Generally, disbursements of grant funds are recognized as expenses at the time of disbursement. However,
   some grant recipients incur expenditures prior to initiating a request for disbursement based on the nature of
   the expenditures. The OBDs accrue a liability for expenditures incurred by grantees prior to receiving grant
   funds for expenditures. The amount to be accrued is determined through an analysis of historic grant
   expenditures.



                                These notes are an integral part of the financial statements.


                                                            - 51 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


N. Contingencies and Commitments

  The OBDs are involved in various administrative proceedings, legal actions, and claims. The balance sheet
  includes an estimated liability for those legal actions where management and the Chief Counsel consider
  adverse decisions “probable” and amounts are reasonably estimable. Legal actions where management and
  the Chief Counsel consider adverse decisions “probable” or “reasonably possible” and the amounts are
  reasonably estimable are disclosed in Note 13, Contingencies and Commitments. However, there are cases
  where amounts have not been accrued or disclosed because the amounts of the potential loss cannot be
  estimated or the likelihood of an unfavorable outcome is considered “remote”.

O. Annual, Sick, and Other Leave

  Annual and compensatory leave is expensed with an offsetting liability as it is earned and the liability is
  reduced as leave is taken. Each year, the balance in the accrued annual leave liability account is adjusted to
  reflect current pay rates. To the extent current or prior year appropriations are not available to fund annual
  and compensatory leave earned but not taken, funding will be obtained from future financing sources. Sick
  leave and other types of nonvested leave are expensed as taken.

P. Interest on Late Payments

  Pursuant to the Prompt Payment Act, 31 U.S.C. § 3901-3907, federal agencies must pay interest on payments
  for goods or services made to business concerns after the due date. The due date is generally 30 days after
  receipt of a proper invoice or acceptance of the goods or services, whichever is later.

Q. Retirement Plans

   With few exceptions, employees hired before January 1, 1984, are covered by the Civil Service Retirement
   System (CSRS) and employees hired on or after that date are covered by the Federal Employees Retirement
   System (FERS). For employees covered by CSRS, the OBDs contribute 7% of the employees’ gross pay for
   regular and 7.5% for law enforcement officers’ retirement. For employees covered by FERS, the OBDs
   contribute 11.7% of the employees’ gross pay for regular and 25.7% for law enforcement officers’ retirement.
   All employees are eligible to contribute to the Federal Thrift Savings Plan (TSP). For those employees
   covered by the FERS, a TSP account is automatically established, and the OBDs are required to contribute an
   additional 1% of gross pay to this plan and match employee contributions up to 4%. No contributions are
   made to the TSP accounts established by the CSRS employees. The OBDs do not report CSRS or FERS
   assets, accumulated plan benefits, or unfunded liabilities, if any, which may be applicable to their employees.
   Such reporting is the responsibility of the Office of Personnel Management (OPM). Statement of Federal
   Financial Accounting Standards (SFFAS) No. 5, Accounting for Liabilities of the Federal Government,
   requires employing agencies to recognize the cost of pensions and other retirement benefits during their
   employees’ active years of service. Refer to Note 16, Imputed Financing from Costs Absorbed by Others, for
   additional details.




                               These notes are an integral part of the financial statements.


                                                           - 52 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


R. Federal Employee Compensation Benefits

   The FECA provides income and medical cost protection to cover federal civilian employees injured on the
   job, employees who have incurred a work-related occupational disease, and beneficiaries of employees whose
   death is attributable to a job-related injury or occupational disease. The total FECA liability consists of an
   actuarial portion and an accrued portion, as discussed below.

   Actuarial Liability: The U.S. Department of Labor (DOL) calculates the liability of the Federal
   Government for future compensation benefits, which includes the expected liability for death, disability,
   medical, and other approved costs. The liability is determined using the paid-losses extrapolation method
   calculated over the next 37-year period. This method utilizes historical benefit payment patterns related to a
   specific incurred period to predict the ultimate payments related to that period. The projected annual benefit
   payments are discounted to present value. The resulting Federal Government liability is then distributed by
   agency. The Department’s portion of this includes the estimated future cost of death benefits, workers’
   compensation, medical, and miscellaneous costs for approved compensation cases for its employees. The
   Department’s liability is further allocated to the component reporting entities on the basis of actual payments
   made to the FECA Special Benefits Fund (SBF) for the three prior years as compared to the total
   Department’s payments made over the same period.

   The FECA actuarial liability is recorded for reporting purposes only. This liability constitutes an extended
   future estimate of cost that will not be obligated against budgetary resources until the fiscal year in which the
   cost is actually billed to the OBDs. The cost associated with this liability may not be met by the OBDs
   without further appropriation action.

   Accrued Liability: The accrued FECA liability owed to the DOL is the difference between the FECA benefits
   paid by the FECA SBF and the agency’s actual cash payments to the FECA SBF. For example, the FECA
   SBF will pay benefits on behalf of an agency through the current year. However, most agencies’ actual cash
   payments to the FECA SBF for the current fiscal year will reimburse the FECA SBF for benefits paid through
   a prior fiscal year. The difference between these two amounts is the accrued FECA liability.

S. Intragovernmental Activity

   Intragovernmental costs and exchange revenue represent transactions made between two reporting entities
   within the federal government. Costs and earned revenues with the public represent exchange transactions
   made between the reporting entity and a non-federal entity. The classification of revenue or cost as
   “intragovernmental” or “with the public” is defined on a transaction-by-transaction basis. The purpose of this
   classification is to enable the federal government to prepare consolidated financial statements, not to match
   public and intragovernmental revenue with costs incurred to produce public and intragovernmental revenue.




                                These notes are an integral part of the financial statements.


                                                            - 53 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


T. 	Revenues and Other Financing Sources

  The OBDs receive the majority of funding needed to support their programs through Congressional
  appropriations. They receive annual, multi-year, and no-year appropriations that may be used, within statutory
  limits, for operating and capital expenditures. Additional amounts are received for reimbursement services.

  Appropriations are reflected as a budgetary financing source entitled “Appropriations Used” on the
  Consolidated Statements of Changes in Net Position at the time goods and services are received.
  Appropriations are recorded in the year they are authorized on the Combined Statements of Budgetary
  Resources. Exchange revenues are recognized when earned, i.e., when services are rendered. The majority of
  intragovernmental services rendered by the OBDs entail legal and administrative activities provided to other
  Department bureaus and other government agencies. The OBDs also receive quarterly bankruptcy fees
  assessed against public debtors.

  Custodial revenues represent the investment interest income earned from the settlement funds held by the
  OBDs and federal civil and criminal collections. The custodial revenues are not retained by the OBDs and are
  therefore recorded as custodial liabilities. Refer to Note 18, Net Custodial Revenue Activity, for details.

  In addition, according to par. 31 of Federal Accounting Standards Advisory Board (FASAB) Interpretation 6,
  Accounting for Imputed Intra-Departmental Costs: An Interpretation of SFFAS 4 (Managerial Cost
  Accounting Concepts and Standards), the receiving entity of the imputed intra-departmental and inter-
  departmental costs recognizes the full cost of the goods and services that it receives. To the extent that
  reimbursement is less than full cost, the receiving entity should recognize the difference as a financing source.

U. 	Earmarked Funds

  SFFAS No. 27, Identifying and Reporting Earmarked Funds defines ‘earmarked funds’ as being financed by
  specifically identified revenues, often supplemented by other financing sources, which remain available over
  time. These specifically identified revenues and other financing sources are required by statute to be used for
  designated activities, benefits or purposes, and must be accounted for separately from the Government’s
  general revenues. The three required criteria for an earmarked fund are:

       1.	 A statute committing the Federal Government to use specifically identified revenues and other
            financing sources only for designated activities, benefits or purposes;
       2. 	 Explicit authority for the earmarked fund to retain revenues and other financing sources not used in
            the current period for future use to finance the designated activities, benefits, or purposes; and
       3.	 A requirement to account for and report on the receipt, use, and retention of the revenues and other
            financing sources that distinguishes the earmarked fund from the Government’s general revenues.

  The following OBDs funds meet the definition of an earmarked fund: U.S. Trustee System Fund and

  Antitrust Division.





                               These notes are an integral part of the financial statements.


                                                           - 54 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


V. Tax Exempt Status

   As an agency of the Federal Government, the OBDs are exempt from all income taxes imposed by any 

   governing body whether it be a federal, state, commonwealth, local, or foreign government.


W. Use of Estimates

   Accounting estimates are an integral part of the OBDs financial statements and were used, in part, to
   determine the reported amounts of assets and liabilities and the reported amounts of revenue and expenses
   during the reporting period. Estimates were based on management’s knowledge and experience about past,
   current, and future events. However, estimates are subjective in nature and actual results may differ from
   management’s judgments.

X. Reclassifications

   The FY 2010 financial statements were reclassified to conform to the FY 2011 Departmental financial
   statement presentation requirements. The reclassifications had no material effect on total assets, liabilities, net
   position, change in net position or budgetary resources as previously reported.

Y. Subsequent Events

   Subsequent events and transactions occurring after September 30, 2011 through the date of the auditors’
   opinion have been evaluated for potential recognition or disclosure in the financial statements. The date of the
   auditors’ opinion also represents the date that the financial statements were available to be issued.




                                These notes are an integral part of the financial statements.


                                                            - 55 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


Note 2. Non-Entity Assets

The OBDs non-entity assets include assets related to custodial activity such as collections from delinquent federal
civil debts and criminal fines, penalties and restitution payments; and investments with the related interest
revenue.

As of September 30, 2011 and 2010
                                                                   2011                        2010
 Intragovernmental
     Fund Balance with U.S. Treasury                       $           666,572         $         848,070
     Investments, Net                                                   86,225                    86,166
       Total Intragovernmental                                         752,797                   934,236
 With the Public
     Total Non-Entity Assets                                          752,797                    934,236
     Total Entity Assets                                            5,560,084                  5,845,998
     Total Assets                                          $        6,312,881          $       6,780,234




                               These notes are an integral part of the financial statements.


                                                           - 56 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


Note 3. Fund Balance with U.S. Treasury

As of September 30, 2011 and 2010
                                                                            2011                   2010
 Fund Balances
   Trust Funds                                                      $           23,606         $      16,334
   Special Funds                                                                14,533                 4,439
   Revolving Funds                                                             418,627               402,435
   General Funds                                                             4,766,281             5,401,755
   Other Fund Types                                                                116                   116
       Total Fund Balances with U.S. Treasury                       $        5,223,163         $   5,825,079


 Status of Fund Balances
    Unobligated Balance - Available                                 $          554,020         $     667,416
    Unobligated Balance - Unavailable                                          260,303               262,537
    Obligated Balance not yet Disbursed                                      3,747,602             4,079,687
    Other Funds (With)/Without Budgetary Resources                             661,238               815,439
       Total Status of Fund Balances                                $        5,223,163         $   5,825,079

Annual and multi-year budget authority expires at the end of its period of availability. During the first through
the fifth expired years, the unobligated balance becomes unavailable and may be used to adjust obligations and
disbursements that were recorded before the budgetary authority expired or to meet a legitimate or bona fide need
arising in the fiscal year for which the appropriation was made. The unobligated balance for no-year budget
authority may be used to incur obligations indefinitely for the purpose specified by the appropriation act. No-year
budget authority unobligated balances are still subject to the annual apportionment and allotment process.

Other Funds (With)/Without Budgetary Resources primarily represents the net effect of 1) investments in short-
term securities with budgetary resources, 2) resources temporarily not available pursuant to public law,
3) custodial liabilities, and 4) miscellaneous receipts.

Note 4. Cash and Monetary Assets

As of September 30, 2011 and 2010
                                                                            2011                   2010
 Cash
   Imprest Funds                                                    $                  46      $          46




                               These notes are an integral part of the financial statements.


                                                           - 57 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


Note 5. Investments, Net

OBDs invest in Market-based Treasury securities. Market-based Treasury securities are debt securities that the
U.S. Treasury issues to federal entities without statutorily determined interest rates. Although the securities are
not marketable, their terms (price and interest rates) mirror the terms of marketable Treasury securities.

The federal Government does not set aside assets to pay future benefits or other expenditures associated with
EOUST earmarked funds. The cash receipts collected from the public for an earmarked fund are deposited in the
U.S. Treasury, which uses the cash for general Government purposes. Treasury securities are issued to the
EOUST as evidence of its receipts. Treasury securities are an asset to the EOUST and a liability to the U.S.
Treasury. Because the EOUST and the U.S. Treasury are both parts of the Government, these assets and
liabilities offset each other from the standpoint of the Government as a whole. For this reason, they do not
represent an asset or a liability in the U.S. Government-wide financial statements. Treasury securities provide the
EOUST with authority to draw upon the U.S. Treasury to make future benefit payments or other expenditures.
When the EOUST requires redemption of these securities to make expenditures, the Government finances those
expenditures out of accumulated cash balances, by raising taxes or other receipts, by borrowing from the public
or repaying less debt, or by curtailing other expenditures. This is the same way that the Government finances all
other expenditures.


                                                                  Unamortized
                                                   Face             Premium             Interest      Investments,    Market
                                                   Value           (Discount)          Receivable         Net         Value
As of September 30, 2011
Intragovernmental
   Non-Marketable Securities
      Market Based                              $ 302,211          $           73      $        44    $ 302,328      $ 302,847

As of September 30, 2010
Intragovernmental
   Non-Marketable Securities
      Market Based                              $ 270,072          $             4     $        195   $ 270,271      $ 270,174




                                These notes are an integral part of the financial statements.


                                                            - 58 -
                                    U.S. Department of Justice

                                  Offices, Boards and Divisions

                                 Notes to the Financial Statements

                                        (Dollars in Thousands, Except as Noted)


Note 6. Accounts Receivable, Net

As of September 30, 2011 and 2010
                                                                           2011                   2010
 Intragovernmental
    Accounts Receivable                                            $           350,778        $     291,193
       Total Intragovernmental                                                 350,778              291,193

 With the Public
   Accounts Receivable                                                          70,269               21,869
   Allowance for Uncollectible Accounts                                        (11,183)              (2,100)
       Total With the Public                                                    59,086               19,769
       Total Accounts Receivable, Net                              $           409,864        $     310,962


The accounts receivable with the public consists in part of EOUST Chapter 11 quarterly fees in the amount of
$66,254 and $19,491 which have been billed and are due to the EOUST as of September 30, 2011 and 2010,
respectively.

Note 7. Inventory and Related Property, Net

As of September 30, 2011 and 2010
                                                                           2011                   2010
Inventory
    Inventory Purchased for Resale                                 $                106       $          106




                              These notes are an integral part of the financial statements.


                                                          - 59 -
                                   U.S. Department of Justice

                                 Offices, Boards and Divisions

                                Notes to the Financial Statements

                                       (Dollars in Thousands, Except as Noted)


Note 8. General Property, Plant and Equipment, Net

As of September 30, 2011                           Acquisition          Accumulated          Net Book      Useful
                                                     Cost               Depreciation          Value         Life

 Vehicles                                          $     13,248         $      (9,161)       $     4,087    5-7 yrs
 Equipment                                               37,337               (26,821)            10,516   5-12 yrs
 Leasehold Improvements                                 119,489               (86,179)            33,310      5 yrs
 Internal Use Software                                   74,482               (46,141)            28,341      7 yrs
 Internal Use Software in Development                   203,848                        -         203,848        n/a
 Total                                             $    448,404         $ (168,302)          $   280,102

As of September 30, 2010

 Vehicles                                          $     11,758         $      (8,226)       $     3,532    5-7 yrs
 Equipment                                               35,061               (26,444)             8,617   5-12 yrs
 Leasehold Improvements                                 110,032               (76,190)            33,842      5 yrs
 Internal Use Software                                   56,228               (34,579)            21,649      7 yrs
 Internal Use Software in Development                   163,661                     -            163,661        n/a
 Total                                             $    376,740         $ (145,439)          $   231,301

The OBDs purchased $71,818 and $57,106 of capitalized property from public sources as of September 30, 2011
and 2010, respectively. The OBDs purchased $25,973 and $19,249 of capitalized property from federal sources
during FYs 2011 and 2010, respectively.




                             These notes are an integral part of the financial statements.


                                                         - 60 -
                                    U.S. Department of Justice

                                  Offices, Boards and Divisions

                                 Notes to the Financial Statements

                                        (Dollars in Thousands, Except as Noted)


Note 9. Other Assets

As of September 30, 2011 and 2010
                                                                                 2011                    2010
 Intragovernmental
     Advances and Prepayments                                            $            95,294     $         134,244


Advances and Prepayments primarily represent funds provided by COPS to OJP that have not yet been expended
by grantees. COPS provides grants to tribal, state, and local law enforcement agencies to hire and train
community policing professionals, acquire and deploy cutting-edge crime-fighting technologies, and develop and
test innovative policing strategies. OJP provides grant accounting services on a reimbursable basis to COPS.

Note 10. Liabilities not Covered by Budgetary Resources

As of September 30, 2011 and 2010
                                                                                  2011                    2010
 Intragovernmental
    Accrued FECA Liabilities                                                 $           9,780       $           9,265
    Other Unfunded Employment Related Liabilities                                          408                     426
       Total Intragovernmental                                                          10,188                   9,691

 With the Public
   Actuarial FECA Liabilities                                                          51,746                50,022
   Accrued Annual and Compensatory Leave Liabilities                                  181,586               183,120
   Contingent Liabilities (Note 13)                                                         -                 4,738
   RECA Liabilities (Note 19)                                                         535,838               541,784
       Total With the Public                                                          769,170               779,664
       Total Liabilities not Covered by Budgetary Resources                           779,358                789,355
       Total Liabilities Covered by Budgetary Resources                             1,843,349              1,963,442
       Total Liabilities                                                     $      2,622,707        $     2,752,797




                              These notes are an integral part of the financial statements.


                                                          - 61 -
                                    U.S. Department of Justice

                                  Offices, Boards and Divisions

                                 Notes to the Financial Statements

                                        (Dollars in Thousands, Except as Noted)


Note 11. Leases

The OBDs have no capital leases. The majority of the OBDs equipment leases are for copying machines and
computer equipment, which are reported as operating leases. These lease agreements will expire in fiscal year
2015.

Future Noncancelable Operating Lease Payments Due

                                                                   Land and              Machinery and
Fiscal Year                                                        Buildings              Equipment          Total
   2012                                                                    424                  1,480            1,904
   2013                                                                      -                    555              555
   2014                                                                      -                     17               17
   2015                                                                      -                      7                7
    Total Future Noncancelable Operating
                Lease Payments                                 $             424         $      2,059    $       2,483




                              These notes are an integral part of the financial statements.


                                                          - 62 -
                                         U.S. Department of Justice

                                       Offices, Boards and Divisions

                                      Notes to the Financial Statements

                                           (Dollars in Thousands, Except as Noted)


Note 12. Other Liabilities

All Other Liabilities are current liabilities. In prior years, the majority of Intragovernmental Other Liabilities
were related to miscellaneous receipts of civil and criminal debt collections where Treasury was designated as the
recipient of either a portion of a collection or the entire amount. As of September 30, 2010 this amount totaled
$485,769. In FY 2011, OBDs changed its method of reporting for these miscellaneous receipts. As outlined in
Note 22, Change in Accounting Principle, these miscellaneous receipts will no longer be reported as Other
Liabilities on the Balance Sheet.

As of September 30, 2011 and 2010
                                                                              2011                    2010
Intragovernmental
    Employer Contributions and Payroll Taxes Payable                  $            30,877        $       27,660
    Other Post-Employment Benefits Due and Payable                                    989                   657
    Other Unfunded Employment Related Liabilities                                     408                   426
    Advances from Others                                                           50,816                57,393
    Liability for Deposit Fund, Clearing
       Account and Undeposited Collections                                           (457)               (5,071)

    Other Liabilities                                                                 959               488,018

       Total Intragovernmental                                                     83,592               569,083


With the Public
   Custodial Liabilities                                                          152,987               118,879
       Total Other Liabilities                                        $           236,579        $      687,962

Note 13. Contingencies and Commitments

                                       Accrued                    Estimated Range of Loss

                                       Liabilities                Lower           Upper

As of September 30, 2011
   Probable                       $                   -       $           -         $             -
   Reasonably Possible                                               39,580                  55,530

As of September 30, 2010
   Probable                       $             4,738         $       4,738         $         5,967
   Reasonably Possible                                               53,181                  65,546




                                 These notes are an integral part of the financial statements.


                                                             - 63 -
                                                   U.S. Department of Justice

                                                 Offices, Boards and Divisions

                                                Notes to the Financial Statements

                                                     (Dollars in Thousands, Except as Noted)


Note 14. Earmarked Funds

As of September 30, 2011 and 2010
                                                                   2011                                                     2010
                                                                                 Total                                                    Total
                                            U.S. Trustees        Antitrust     Earmarked           U.S. Trustees          Antitrust     Earmarked
                                                Fund             Division        Funds                 Fund               Division        Funds
Balance Sheet
Assets
   Fund Balance with U. S. Treasury         $     14,532     $       33,106    $    47,638         $         4,439    $       30,210    $    34,649
   Investments, Net                              216,029                  -        216,029                 184,105                 -        184,105
   Other Assets                                   58,406              3,152         61,558                  20,704             4,894         25,598
     Total Assets                           $    288,967     $       36,258    $   325,225         $       209,248    $       35,104    $   244,352

 Liabilities
   Accounts Payable                         $      8,236     $        5,949    $    14,185         $        11,370    $        5,652    $    17,022
   Other Liabilities                              21,594             15,090         36,684                  21,203            15,067         36,270
      Total Liabilities                     $     29,830     $       21,039    $    50,869         $        32,573    $       20,719    $    53,292
 Net Position
   Unexpended Appropriations                $          -     $       21,727    $    21,727         $             -    $       19,585    $    19,585
   Cumulative Results of Operations              259,137             (6,508)       252,629                 176,675            (5,200)       171,475
      Total Net Position                    $    259,137     $       15,219    $   274,356         $       176,675    $       14,385    $   191,060
      Total Liabilities and Net Position    $    288,967     $       36,258    $   325,225         $       209,248    $       35,104    $   244,352


For the Fiscal Years Ended September 30, 2011 and 2010
                                                                   2011                                                     2010
                                                                                 Total                                                    Total
                                            U.S. Trustees        Antitrust     Earmarked           U.S. Trustees          Antitrust     Earmarked
                                                Fund             Division        Funds                 Fund               Division        Funds
Statement of Net Cost
   Gross Cost of Operations                 $    234,356     $      162,760    $   397,116         $       229,760    $      166,135    $   395,895
   Less: Exchange Revenues                       314,921             91,636        406,557                 289,191            72,958        362,149
     Net Cost of Operations                 $    (80,565)    $       71,124    $    (9,441)        $       (59,431)   $       93,177    $    33,746

Statement of Changes in Net Position
  Net Position Beginning of Period          $    176,675     $       14,385    $   191,060         $       116,141    $       25,734    $   141,875

  Budgetary Financing Sources                      1,070             71,420         72,490                     319            81,311         81,630
  Other Financing Sources                            827                538          1,365                     784               517          1,301
     Total Financing Sources                       1,897             71,958         73,855                   1,103            81,828         82,931
  Net Cost of Operations                          80,565            (71,124)         9,441                  59,431           (93,177)       (33,746)
  Net Change                                      82,462                834         83,296                  60,534           (11,349)        49,185
  Net Position End of Period                $    259,137     $       15,219    $   274,356         $       176,675    $       14,385    $   191,060

The United States Trustees supervise the administration of bankruptcy cases and private trustees in the Federal
Bankruptcy Courts. The Bankruptcy Judges, U.S. Trustees and Family Farmer Bankruptcy Act of 1986 (Public
Law 99–554) expanded the pilot trustee program to a 21 region, nationwide program encompassing 88 judicial
districts. This program collects user fees assessed against debtors, which offset the annual appropriation.

The Antitrust Division administers and enforces antitrust and related statutes. This program primarily involves
the investigation of suspected violations of the antitrust laws, the conduct of civil and criminal proceedings in the
federal courts, and the maintenance of competitive conditions. The Antitrust Division collects filing fees for pre-
merger notifications and retains these fees for expenditure in support of its programs.
                                           These notes are an integral part of the financial statements.


                                                                          - 64 -
                                                       U.S. Department of Justice

                                                     Offices, Boards and Divisions

                                                    Notes to the Financial Statements

                                                            (Dollars in Thousands, Except as Noted)


Note 15. Net Cost of Operations by Suborganization

For the Fiscal Year Ended September 30, 2011
                                                                    Suborganizations
                                             LA                   NLA          Earmarked          WCF             Eliminations           Consolidated

Goal 1: Prevent Terrorism and Promote the Nation's Security
   Gross Cost                          $       204,150 $            107,750 $              - $       234,295 $           (167,870) $           378,325
   Less: Earned Revenue                         32,425               15,738                -         235,916             (167,870)             116,209
   Net Cost of Operations                      171,725               92,012                -          (1,621)                   -              262,116

Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
   Gross Cost                                 3,426,764            2,097,497       402,360           524,079             (591,982)           5,858,718
   Less: Earned Revenue                         554,587              100,497       411,801           527,706             (591,982)           1,002,609
   Net Cost of Operations                     2,872,177            1,997,000        (9,441)           (3,627)                   -            4,856,109

Goal 3: Ensure the Fair and Efficient Administration of Justice
   Gross Cost                                  196,324             2,079,673               -         474,754             (308,832)           2,441,919
   Less: Earned Revenue                          2,068                32,236               -         478,039             (308,832)             203,511
   Net Cost of Operations                      194,256             2,047,437               -          (3,285)                   -            2,238,408

Net Cost of Operations                 $      3,238,158 $          4,136,449 $       (9,441) $        (8,533) $                  -   $       7,356,633



For the Fiscal Year Ended September 30, 2010
                                                                    Suborganizations
                                             LA                   NLA          Earmarked          WCF             Eliminations           Consolidated

Goal 1: Prevent Terrorism and Promote the Nation's Security

   Gross Cost                          $       192,452 $            104,820 $              - $       232,585 $           (169,914) $           359,943
   Less: Earned Revenue                         32,447               12,659                -         235,040             (169,914)             110,232
   Net Cost of Operations                      160,005               92,161                -          (2,455)                   -              249,711

Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People

   Gross Cost                                 3,370,166            2,052,254       401,021           517,531             (577,535)           5,763,437
   Less: Earned Revenue                         556,149               99,022       367,593           522,995             (577,535)             968,224
   Net Cost of Operations                     2,814,017            1,953,232        33,428            (5,464)                   -            4,795,213

Goal 3: Ensure the Fair and Efficient Administration of Justice

   Gross Cost                                  190,747             1,930,077               -         467,604             (318,499)           2,269,929
   Less: Earned Revenue                              -                26,761               -         472,542             (318,499)             180,804
   Net Cost of Operations                      190,747             1,903,316               -          (4,938)                   -            2,089,125

Net Cost of Operations                 $      3,164,769 $          3,948,709 $      33,428 $         (12,857) $                  -   $       7,134,049

LA - Legal Activities provides for the legal activities of the U S Department of Justice,
      including the Antitrust, Civil, Civil Rights, Criminal, Environment and Natural Resources, and Tax Divisions
NLA - Non Legal Administration provides the resources for the programs and operations of the Attorney General,
      the Deputy Attorney General, the Associate Attorney General, their immediate Offices,
      several senior policy offices, and certain activities of the Justice Management Division
Earmarked - Funds identified as earmarked relate specifically to activities of the U S Trustees and Antitrust Division
WCF - Working Capital Fund provides a centralized performance of common administrative services for the Department



                                                These notes are an integral part of the financial statements.


                                                                                 - 65 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


Note 16. Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e. non-reimbursed and under-
reimbursed) portion of the full costs of goods and services received by the OBDs from a providing entity that is
not part of the Department of Justice. In accordance with SFFAS No. 30, Inter-Entity Cost Implementation
Amending SFFAS 4, Managerial Cost Accounting Standards and Concepts, the material Imputed Inter-
Departmental financing sources recognized by the OBDs are the actual cost of future benefits for the Federal
Employees Health Benefits Program (FEHB), the Federal Employees’ Group Life Insurance Program (FEGLI),
the Federal Pension plans that are paid by other Federal entities, and any un-reimbursed payments made from the
Treasury Judgment Fund on behalf of the OBDs. The Treasury Judgment Fund was established by the Congress
and funded at 31 U.S.C. 1304 to pay in whole or in part the court judgments and settlement agreements
negotiated by the Department on behalf of agencies, as well as certain types of administrative awards.
Interpretation of Federal Financial Accounting Standards Interpretation No. 2, Accounting for Treasury Judgment
Fund Transactions, requires agencies to recognize liabilities and expenses when unfavorable litigation outcomes
are probable and the amount can be estimated and will be paid by the Treasury Judgment Fund.

SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires that employing agencies recognize
the cost of pensions and other retirement benefits during their employees’ active years of service. SFFAS No. 5
requires OPM to provide cost factors necessary to calculate cost. OPM actuaries calculate the value of pension
benefits expected to be paid in the future, and then determine the total funds to be contributed by and for covered
employees, such that the amount calculated would be sufficient to fund the projected pension benefits. For
employees covered by CSRS, the cost factors are 30.1% of basic pay for regular, 51.1% law enforcement officers,
23.5% regular offset, and 45.6% law enforcement officers offset. For employees covered by FERS, the cost
factors are 13.8% of basic pay for regular and 29.8% for law enforcement officers.

The cost to be paid by other agencies is the total calculated future costs, less employee and employer
contributions. In addition, the cost of other retirement benefits, which include health and life insurance that are
paid by other Federal entities, must also be recorded.

For the Fiscal Years Ended September 30, 2011 and 2010
                                                                         2011                       2010
Imputed Inter-Departmental Financing
   Treasury Judgment Fund                                         $           40,864            $       3,612
   Health Insurance                                                          112,517                  107,985
   Life Insurance                                                                452                      451
   Pension                                                                    67,778                   51,147
      Total Imputed Inter-Departmental                            $          221,611            $     163,195

Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, Managerial Cost Accounting
Standards and Concepts, are the unreimbursed portion of the full costs of goods and services received by the
OBDs from another component in the Department. The OBDs do not have any imputed intra-departmental
financing sources that meet the reporting requirements of the Department.

                                These notes are an integral part of the financial statements.


                                                            - 66 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


Note 17. Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:
                                                                                                        Total
                                                                  Direct              Reimbursable   Obligations
                                                                 Obligations           Obligations    Incurred
For the Fiscal Year Ended September 30, 2011
    Obligations Apportioned Under
       Category A                                              $ 5,909,049             $ 2,261,131   $ 8,170,180
       Category B                                                1,350,261                  34,250     1,384,511
    Total                                                      $ 7,259,310             $ 2,295,381   $ 9,554,691

For the Fiscal Year Ended September 30, 2010
    Obligations Apportioned Under
       Category A                                              $ 6,746,230             $ 2,196,053   $ 8,942,283
       Category B                                                  581,596                  22,334       603,930
    Total                                                      $ 7,327,826             $ 2,218,387   $ 9,546,213


The apportionment categories are determined in accordance with the guidance provided in, Part 4, “Instructions
on Budget Execution” of OMB Circular A-11, Preparation, Submission and Execution of the Budget. The
majority of the OBDs apportionments were under Category A, which represents resources apportioned for
calendar quarters. The apportionments for part of COPS were under Category B, which represents resources
apportioned for other time periods, activities, projects, objectives or for a combination thereof.




                               These notes are an integral part of the financial statements.


                                                           - 67 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


Note 17. Information Related to the Statement of Budgetary Resources (continued)

Status of Undelivered Orders:

Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which have not been actually
or constructively received. This amount includes any orders which may have been prepaid or advanced but for
which delivery or performance has not yet occurred.

As of September 30, 2011 and 2010
                                                                            2011                   2010
 UDO Obligations Unpaid                                             $        3,330,095         $    3,689,725
 UDO Obligations Prepaid/Advanced                                               96,902                141,910
     Total UDO                                                      $        3,426,997         $    3,831,635


Permanent Indefinite Appropriations:

A permanent indefinite appropriation is open-ended as to both its period of availability (amount of time the
agency has to spend the funds) and its amount.

The Consolidated Appropriations Act, 2005, provided a permanent indefinite appropriation for the OBDs’
Radiation Exposure Compensation Act program beginning FY 2006.

Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not obligated and that remains
available for obligation based on annual legislative requirements and other enabling authorities, unless otherwise
restricted. The use of unobligated balances is restricted based on annual legislation requirements and other
enabling authorities. Funds are appropriated on an annual, multi-year, and no-year basis. Appropriated funds
shall expire on the last day of availability and are no longer available for new obligations. Unobligated balances
in unexpired fund symbols are available in the next fiscal year for new obligations unless some restrictions had
been placed on those funds by law. Amounts in expired fund symbols are not available for new obligations, but
may be used to adjust previously established obligations.




                               These notes are an integral part of the financial statements.


                                                           - 68 -
                                        U.S. Department of Justice

                                      Offices, Boards and Divisions

                                     Notes to the Financial Statements

                                            (Dollars in Thousands, Except as Noted)


Note 17. Information Related to the Statement of Budgetary Resources (continued)

Statement of Budgetary Resources vs. the Budget of the United States Government:

The reconciliation as of September 30, 2011 is not presented, because the submission of the Budget of the United
States Government (Budget) for FY 2013, which presents the execution of the FY 2011 Budget, occurs after
publication of these financial statements. The Department of Justice Budget Appendix can be found on the OMB
website (http://www.whitehouse.gov/omb/budget) and is available in early February 2012.

For the Fiscal Year Ended September 30, 2010
(Dollars in Millions)                                                                                   Distributed
                                                                     Budgetary         Obligations      Offsetting          Net
                                                                     Resources          Incurred         Receipts          Outlays

 Statement of Budgetary Resources (SBR)                             $     10,476       $      9,546     $       692    $       6,383

 Funds not Reported in Budget of the U.S.
    Expired Funds                                                            (172)                (4)             -               -
    Redistribution of Clearing Accounts and Certain                             -                  -           (354)            354
       Miscellaneous Receipts
    Special and Trust Fund Receipts
       Earnings on Investments, U.S. Trustees System                             -                 -              -               1
       Fees for Bankruptcy Oversight, U.S. Trustees System                       -                 -              -             277
       Payment from the General Fund, Radiation Exposure
          Compensation Trust Fund                                                -                 -              -              60
 Funds not Reported in the SBR
    Supplementals Submission - WCF Additional Recoveries                         5                5               -                   -
    Supplementals Submission - Justice Info. Shared Technology                  (5)               -               -                   -
 Other                                                                          (2)               1               -                  (1)

 Budget of the United States Government                             $     10,302       $      9,548     $       338    $       7,074



The Other line includes reconciling items between The Federal Agencies Centralized Trial Balance System II
(FACTSII) and the SBR.

A reconciliation with the SF-133, “Report on Budget Execution and Budgetary Resources,” was performed and
explanations of differences were provided to OMB at the Department consolidated level.




                                  These notes are an integral part of the financial statements.


                                                              - 69 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


Note 18. Net Custodial Revenue Activity

The Statement of Custodial Activity (SCA) presents the sources and disposition of non-exchange revenues
collected or accrued by the Department on behalf of other recipient entities. In accordance with SFFAS No. 7,
Accounting for Revenue and Other Financing Sources, non-exchange custodial collections should be measured
by the collecting entities, but should be recognized by the entities legally entitled to the revenue; therefore,
custodial collections and interest revenue are recognized on the SCA. The SCA is prepared on a modified cash
basis and represents two custodial accounts: (1) DCM and (2) French Bank Credit Lyonnais and French company
Artemis settlement fund.

Overall, the OBDs custodial collections totaled $5,260,397 and $4,822,740 for the fiscal years ended
September 30, 2011 and 2010, respectively. The custodial assets and liabilities are presented on the OBDs
balance sheet as $752,797 and $448,467, as of September 30, 2011 and 2010, respectively.

Debt Collection Management

The primary source of the Office of Debt Collection Management collections consists of civil litigated matters
(i.e., student loan defaults, health care fraud, etc.). DCM also processes certain payments on criminal debts as an
accommodation for the Bureau of Prisons (BOP), another component of the Department of Justice, and the Clerks
of the U.S. District Courts. The BOP aggregates collections of inmate criminal debt by correction facility, and
DCM sorts the collections by judicial district and disburses payments to the respective Clerks of the U.S. Court.
DCM also accepts wire transfers or other payments on a criminal debt if a Clerk of U.S. Court is unable or
unwilling to do so. In addition, other negligible custodial collections occur for interest, fines and penalties. DCM
is authorized to perform these actions through the OMB Circular A-129, Policies for Federal Credit Programs
and Non-Tax Receivables; “Section V. Delinquent Debt Collection-Referrals to the Department of Justice; A.
Referral for Litigation”.

French bank Credit Lyonnais and French company Artemis settlement fund

During FY 2004, the OBDs collected a total settlement fund of $560,000, of which French bank Credit Lyonnais
and French company Artemis paid $375,000 and $185,000, respectively. $110,000 of the French company
Artemis settlement fund was disbursed for compensation of benefits lost. In addition, during FY 2006, $385,473
(including $10,473 interest) of the French bank Credit Lyonnais settlement fund was disbursed for the civil
settlement cases. The remaining $75,000 was held in reserve pending the outcome of the French company
Artemis lawsuit. By court order, the OBDs were given the investment authority and the settlement funds must be
invested. The OBDs invest these funds with the U.S. Department of Treasury, Bureau of the Public Debt. In
accordance with court orders, the French bank Credit Lyonnais and French company Artemis settlement fund
disbursed earned interest to the public of $59 and $81, as of September 30, 2011 and 2010, respectively.




                                These notes are an integral part of the financial statements.


                                                            - 70 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


Note 19. Radiation Exposure Compensation Act

On October 15, 1990, Congress passed the Radiation Exposure Compensation Act (RECA), 42 U.S.C. § 2210,
providing for compassionate payments to individuals who contracted certain cancers and other serious diseases as
a result of their exposure to radiation released during above-ground nuclear weapons tests or as a result of their
exposure to radiation during employment in underground uranium mines. Implementing regulations were issued
by the Department and published in the Federal Register on April 10, 1992, establishing procedures to resolve
claims in a reliable, objective, and non-adversarial manner, with little administrative cost to the United States or
to the person filing the claim. Revisions to the regulations, published in the Federal Register on March 22, 1999,
served to greater assist claimants in establishing entitlement to an award.

On July 10, 2000, the Radiation Exposure Compensation Act Amendments of 2000, P.L. 106-245, was enacted.
Some of the widespread changes include new claimant populations, additional compensable diseases, lower
radiation exposure thresholds, modified medical documentation requirements, and removal of certain disease
restrictions. Pursuant to the 2000 Amendments, the Department was directed to issue implementing regulations.
The Department published two related rulemakings in the Federal Register to implement the legislation.

Subsequent action by Congress required modification to those rulemakings. Therefore, the Department published
a “final” rule in the Federal Register on March 23, 2004, which went into effect on April 22, 2004.

There are now five categories of claimants: uranium miners, uranium millers, ore transporters, downwinders, and
on-site participants. Each category requires similar eligibility criteria: if claimants can demonstrate that they
contracted a compensable disease after working or residing in a designated location for a specified period of time,
they qualify for compensation.

The enactment of two pieces of legislation changed the funding sources for RECA claimants. The National
Defense Authorization Act for FY 2005 requires that RECA Section 5 claimants (uranium miners, millers, and
ore transporters) be paid out of the Department of Labor’s (Labor) Energy Employees Occupational Illness
Compensation Fund. The RECA Section 5 liability of $316,993 as of March 30, 2004, was transferred to Labor
during FY 2005. The RECA Fund began exclusively paying RECA Section 4 claimants (downwinders and on-
site participants) in FY 2005. The Consolidated Appropriations Act, 2005, contains language that made funding
for the RECA Trust Fund mandatory and indefinite beginning in FY 2006.

The OBDs recognized liabilities of $535,838 and $541,784 for estimated future benefits payable by the
Department as of September 30, 2011 and 2010, respectively, to eligible individuals under the Act through
FY 2022. The estimated liability is based on activity between FYs 2006 - 2011. Key factors in determining
future liability are trends in the number of claims filed, trends in the percentage of claims adjudicated, and trends
in the percentage of claims approved. These estimates are then discounted in accordance with the discount rates
set by the Office of Management and Budget.




                                These notes are an integral part of the financial statements.


                                                            - 71 -
                                    U.S. Department of Justice

                                  Offices, Boards and Divisions

                                 Notes to the Financial Statements

                                        (Dollars in Thousands, Except as Noted)


Note 20. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
         Statement of Financing)

For the Fiscal Years Ended September 30, 2011 and 2010

                                                                                                  2011             2010
Resources Used to Finance Activities
  Budgetary Resources Obligated
   Obligations Incurred                                                                       $   9,554,691    $   9,546,213
   Less: Spending Authority from Offsetting Collections and Recoveries                            2,315,302        2,417,032
   Obligations Net of Offsetting Collections and Recoveries                                       7,239,389        7,129,181
   Less: Offsetting Receipts                                                                        777,312          691,754
   Net Obligations                                                                                6,462,077        6,437,427

 Other Resources
    Transfers-In/Out Without Reimbursement                                                          (53,304)         (83,327)
    Imputed Financing from Costs Absorbed by Others (Note 16)                                       221,611          163,195
    Net Other Resources Used to Finance Activities                                                  168,307           79,868
Total Resources Used to Finance Activities                                                        6,630,384        6,517,295

Resources Used to Finance Items not Part of the Net Cost of
 Operations
    Net Change in Budgetary Resources Obligated for Goods, Services,
      and Benefits Ordered but not Yet Provided                                                    374,626          107,989
    Resources That Fund Expenses Recognized in Prior Periods (Note 21)                             (12,236)               -
    Budgetary Offsetting Collections and Receipts That do not
      Affect Net Cost of Operations                                                                446,582          353,737
    Resources That Finance the Acquisition of Assets                                               (97,791)         (76,341)
Total Resources Used to Finance Items not Part of the Net Cost
 of Operations                                                                                     711,181          385,385

Total Resources Used to Finance the Net Cost of Operations                                    $   7,341,565    $   6,902,680




                              These notes are an integral part of the financial statements.


                                                          - 72 -
                                    U.S. Department of Justice

                                  Offices, Boards and Divisions

                                 Notes to the Financial Statements

                                        (Dollars in Thousands, Except as Noted)


Note 20. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
         Statement of Financing) (continued)

For the Fiscal Years Ended September 30, 2011 and 2010


                                                                                                  2011            2010
Components of Net Cost of Operations That Will not Require
 or Generate Resources in the Current Period
    Components That Will Require or Generate Resources
     in Future Periods (Note 21)                                                              $    (43,907)   $    208,029

    Depreciation and Amortization                                                                   48,988          29,939
    Other                                                                                            9,987          (6,599)
Total Components of Net Cost of Operations That Will not Require or
 Generate Resources                                                                                 58,975          23,340

Total Components of Net Cost of Operations That Will not
  Require or Generate Resources in the Current Period                                               15,068         231,369

Net Cost of Operations                                                                        $   7,356,633   $   7,134,049




                              These notes are an integral part of the financial statements.


                                                          - 73 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


Note 21. Explanation of Differences Between Liabilities not Covered by Budgetary Resources
         and Components of Net Cost of Operations Requiring or Generating Resources in
         Future Periods

Liabilities that are not covered by realized budgetary resources and for which there is not certainty that budgetary
authority will be realized, such as the enactment of an appropriation, are considered liabilities not covered by
budgetary resources. These liabilities totaling $779,358 and $789,355 on September 30, 2011 and 2010,
respectively, are discussed in Note 10, Liabilities not Covered by Budgetary Resources. Decreases in these
liabilities result from current year budgetary resources that were used to fund expenses recognized in prior
periods. Increases in these liabilities represent unfunded expenses that were recognized in the current period.
These increases, along with the change in the portion of exchange revenue receivables from the public, which are
not considered budgetary resources until collected, represent components of current period net cost of operations
that will require or generate budgetary resources in future periods. The changes in liabilities not covered by
budgetary resources and receivables generating resources in future periods are comprised of the following:

For the Fiscal Years Ended September 30, 2011 and 2010
                                                                                                2011           2010
 Resources that Fund Expenses Recognized in Prior Periods
  Decrease in Accrued Annual and Compensatory Leave Liabilities                             $    (1,534)   $          -
    Other
       Decrease in Contingent Liabilities                                                        (4,738)              -
       Decrease in Other Unfunded Employment Related Liabilities                                    (18)              -
       Decrease in RECA Liabilities                                                              (5,946)              -

          Total Other                                                                           (10,702)              -
          Total Resources that Fund Expenses Recognized in Prior Periods                    $   (12,236)   $          -

 Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
    Increase in Accrued Annual and Compensatory Leave Liabilities            $          -     $   4,855
    (Increase)/Decrease in Exchange Revenue Receivable from the Public            (46,146)       (2,509)
    Other
       Increase in Actuarial FECA Liabilities                                       1,724         2,518
       Increase in Accrued FECA Liabilities                                           515           292
       Increase in Contingent Liabilities                                               -         4,738
       Increase in Other Unfunded Employment Related Liabilities                        -           186
       Increase in RECA Liabilities                                                     -       197,949
         Total Other                                                                2,239       205,683
         Total Components of Net Cost of Operations That Will Require
            or Generate Resources in Future Periods                          $ (43,907)       $ 208,029

The increase in Exchange Revenue Receivable from the Public varies from the balance sheet as a result of the
UST Fees Receivable which has no associated budgetary accounts.
                                These notes are an integral part of the financial statements.


                                                            - 74 -
                                    U.S. Department of Justice

                                  Offices, Boards and Divisions

                                 Notes to the Financial Statements

                                        (Dollars in Thousands, Except as Noted)


Note 22. Change in Accounting Principle

Based upon guidance received from the U.S. Department of Treasury in FY 2011, the OBDs has changed its
method of reporting for Debt Collection Management miscellaneous receipts, which as of September 30, 2011
totaled $618,814. This change in method of reporting results in a change in accounting principle, which OBDs is
applying prospectively beginning with FY 2011. The cumulative amount of miscellaneous receipts from prior
years that were reported as Other Liabilities (Note 12) will no longer be reported in the Consolidated Balance
Sheet, and will be reflected in the Statement of Custodial Activity as Transfers to the Treasury General Fund.




                              These notes are an integral part of the financial statements.


                                                          - 75 -
This page intentionally left blank.





           - 76 -
Required Supplementary Information

             Unaudited





             - 77 -
                                                                                                 U. S. Department of Justice

                                                                                               Offices, Boards and Divisions

                                                                                           Required Supplementary Information

                                                                                      Combining Statements of Budgetary Resources

                                                                                      For the Fiscal Year Ended Septmember 30, 2011



         Dollars in Thousands                                                                                     LA                  NLA                  Earmarked            WCF               Combined

         Budgetary Resources

             Unobligated Balance, Brought Forward, October 1                                            $              233,698    $      411,540       $          20,859    $      263,856    $        929,953

             Recoveries of Prior Year Unpaid Obligations                                                               128,668              73,951                 3,864                 -             206,483

             Budget Authority
                Appropriations Received                                                                             3,170,634          3,794,365                 290,996                 -            7,255,995
                Spending Authority from Offsetting Collections
                    Earned
                        Collected                                                                                      561,253           129,568                  95,594         1,308,781            2,095,196
                        Change in Receivables from Federal Sources                                                      29,262            35,236                   1,286           (22,148)              43,636
                    Change in Unfilled Customer Orders
                        Advance Received                                                                               (1,684)            (6,466)                      -                 -               (8,150)
                        Without Advance from Federal Sources                                                           25,106            (57,193)                   (119)           10,343              (21,863)
             Subtotal Budget Authority                                                                              3,784,571          3,895,510                 387,757         1,296,976            9,364,814





- 78 -
             Nonexpenditure Transfers, Net, Anticipated and Actual                                                      (4,573)         (183,249)                      -           113,734              (74,088)


             Temporarily not Available Pursuant to Public Law                                                                 -                   -                 (439)                -                 (439)


             Permanently not Available                                                                                 (13,842)             (17,541)                (326)          (26,000)             (57,709)


         Total Budgetary Resources                                                                      $          4,128,522      $    4,180,211       $        411,715     $    1,648,566    $     10,369,014




         LA - Legal Activities provides for the legal activities of the U S Department of Justice,
                 including the Antitrust, Civil, Civil Rights, Criminal, Environment and Natural Resources, and Tax Divisions
         NLA - Non Legal Administration provides the resources for the programs and operations of the Attorney General,
                 the Deputy Attorney General, the Associate Attorney General, their immediate Offices,
                 several senior policy offices, and certain activities of the Justice Management Division
         Earmarked - Funds identified as earmarked relate specifically to activities of the U S Trustees and Antitrust Division
         WCF - Working Capital Fund provides a centralized performance of common administrative services for the Department
                                                                                    U. S. Department of Justice

                                                                                   Offices, Boards and Divisions

                                                                               Required Supplementary Information

                                                                      Combining Statements of Budgetary Resources (continued)

                                                                         For the Fiscal Year Ended Septmember 30, 2011



         Dollars in Thousands                                                                 LA                 NLA              Earmarked           WCF              Combined

         Status of Budgetary Resources

            Obligations Incurred
               Direct                                                                  $       3,186,295     $    3,779,439   $         293,576   $            -   $       7,259,310
               Reimbursable                                                                      666,306            191,231              96,936        1,340,908           2,295,381
                   Total Obligations Incurred                                                  3,852,601          3,970,670             390,512        1,340,908           9,554,691
            Unobligated Balance - Available
               Apportioned                                                                         139,269          153,502               3,786          257,463            554,020
            Unobligated Balance not Available                                                      136,652           56,039              17,417           50,195            260,303
         Total Status of Budgetary Resources                                           $      4,128,522      $    4,180,211   $        411,715    $    1,648,566   $     10,369,014

         Change in Obligated Balance

            Obligated Balance, Brought Forward, October 1
               Unpaid Obligations                                                      $         883,299 $        3,520,245   $          42,739 $        428,178   $       4,874,461
               Less: Uncollected Customer Payments from Federal Sources                          328,080            174,307               2,849          289,538             794,774
                   Total Unpaid Obligated Balance, Brought Forward, October 1                    555,219          3,345,938              39,890          138,640           4,079,687




- 79 -
            Obligations Incurred, Net                                                          3,852,601          3,970,670             390,512        1,340,908           9,554,691
            Less: Gross Outlays                                                                3,673,230          4,215,266             389,640        1,380,384           9,658,520
            Less: Recoveries of Prior Year Unpaid Obligations, Actual                            128,668             73,952               3,863                -             206,483
            Change in Uncollected Customer Payments from Federal Sources                         (54,368)            21,957              (1,167)          11,805             (21,773)

            Obligated Balance, Net - End of Period
               Unpaid Obligations                                                                  934,002        3,201,696              39,748          388,703           4,564,149
               Less: Uncollected Customer Payments from Federal Sources                            382,448          152,349               4,016          277,734             816,547
                          Total Unpaid Obligated Balance, Net - End of Period          $        551,554      $    3,049,347   $         35,732    $     110,969    $      3,747,602

         Net Outlays

            Gross Outlays                                                              $       3,673,230     $    4,215,266   $         389,640   $    1,380,384   $       9,658,520
            Less: Offsetting Collections                                                         559,568            123,103              95,594        1,308,781           2,087,046
            Less: Distributed Offsetting Receipts                                                      -             66,994             267,731          442,587             777,312

         Total Net Outlays                                                             $      3,113,662      $    4,025,169   $         26,315    $    (370,984) $        6,794,162
                                                                                                 U. S. Department of Justice

                                                                                               Offices, Boards and Divisions

                                                                                           Required Supplementary Information

                                                                                      Combining Statements of Budgetary Resources

                                                                                      For the Fiscal Year Ended Septmember 30, 2010



         Dollars in Thousands                                                                                     LA                  NLA                  Earmarked            WCF                Combined

         Budgetary Resources

             Unobligated Balance, Brought Forward, October 1                                            $              213,894    $      148,538       $          35,922    $      255,630     $        653,984

             Recoveries of Prior Year Unpaid Obligations                                                               108,684              67,226                 2,645              47,084            225,639

             Budget Authority
                Appropriations Received                                                                             3,102,094          4,178,309                 309,562                   -           7,589,965
                Spending Authority from Offsetting Collections
                    Earned
                        Collected                                                                                      588,424           194,080                  75,968         1,277,160             2,135,632
                        Change in Receivables from Federal Sources                                                       6,032            (6,611)                  2,133           (46,263)              (44,709)
                    Change in Unfilled Customer Orders
                        Advance Received                                                                                4,388              3,132                       -                 -                 7,520
                        Without Advance from Federal Sources                                                           (6,706)           105,356                      82            (5,782)               92,950
             Subtotal Budget Authority                                                                              3,694,232          4,474,266                 387,745         1,225,115             9,781,358





- 80 -
             Nonexpenditure Transfers, Net, Anticipated and Actual                                                     (11,083)         (198,526)                                     75,097            (134,512)


             Permanently not Available                                                                                    (849)             (40,020)              (9,434)                  -             (50,303)


         Total Budgetary Resources                                                                      $          4,004,878      $    4,451,484       $        416,878     $    1,602,926     $     10,476,166




         LA - Legal Activities provides for the legal activities of the U S Department of Justice,
                 including the Antitrust, Civil, Civil Rights, Criminal, Environment and Natural Resources, and Tax Divisions
         NLA - Non Legal Administration provides the resources for the programs and operations of the Attorney General,
                 the Deputy Attorney General, the Associate Attorney General, their immediate Offices,
                 several senior policy offices, and certain activities of the Justice Management Division
         Earmarked - Funds identified as earmarked relate specifically to activities of the U S Trustees and Antitrust Division
         WCF - Working Capital Fund provides a centralized performance of common administrative services for the Department
                                                                                    U. S. Department of Justice

                                                                                   Offices, Boards and Divisions

                                                                               Required Supplementary Information

                                                                      Combining Statements of Budgetary Resources (continued)

                                                                         For the Fiscal Year Ended Septmember 30, 2010



         Dollars in Thousands                                                                 LA                 NLA              Earmarked           WCF              Combined

         Status of Budgetary Resources

            Obligations Incurred
               Direct                                                                  $       3,159,040     $    3,851,006   $         317,780   $            -   $       7,327,826
               Reimbursable                                                                      612,140            188,938              78,239        1,339,070           2,218,387
                   Total Obligations Incurred                                                  3,771,180          4,039,944             396,019        1,339,070           9,546,213
            Unobligated Balance - Available
               Apportioned                                                                          97,943          354,452               3,574          211,447            667,416
            Unobligated Balance not Available                                                      135,755           57,088              17,285           52,409            262,537
         Total Status of Budgetary Resources                                           $      4,004,878      $    4,451,484   $        416,878    $    1,602,926   $     10,476,166

         Change in Obligated Balance

            Obligated Balance, Brought Forward, October 1
               Unpaid Obligations                                                      $         851,763     $    3,422,339 $            48,977 $        448,523   $       4,771,602
               Less: Uncollected Customer Payments from Federal Sources                          328,755             75,562                 634          341,582             746,533
                   Total Unpaid Obligated Balance, Brought Forward, October 1                    523,008          3,346,777              48,343          106,941           4,025,069




- 81 -
            Obligations Incurred, Net                                                          3,771,180          4,039,944             396,019        1,339,070           9,546,213
            Less: Gross Outlays                                                                3,630,960          3,874,814             399,611        1,312,330           9,217,715
            Less: Recoveries of Prior Year Unpaid Obligations, Actual                            108,685             67,225               2,645           47,084             225,639
            Change in Uncollected Customer Payments from Federal Sources                             674            (98,745)             (2,215)          52,045             (48,241)

            Obligated Balance, Net - End of Period
               Unpaid Obligations                                                                  883,299        3,520,242              42,740          428,180           4,874,461
               Less: Uncollected Customer Payments from Federal Sources                            328,082          174,305               2,849          289,538             794,774
                          Total Unpaid Obligated Balance, Net - End of Period          $        555,217      $    3,345,937   $         39,891    $     138,642    $      4,079,687

         Net Outlays

            Gross Outlays                                                              $       3,630,961     $    3,874,814   $         399,611   $    1,312,329   $       9,217,715
            Less: Offsetting Collections                                                         592,812            197,213              75,968        1,277,159           2,143,152
            Less: Distributed Offsetting Receipts                                                      -             52,142             278,016          361,596             691,754

         Total Net Outlays                                                             $      3,038,149      $    3,625,459   $         45,627    $    (326,426) $        6,382,809
